<html>
<title> - ONE YEAR AFTER THE NOBEL PEACE PRIZE AWARD TO LIU XIAOBO: CONDITIONS FOR POLITICAL PRISONERS AND PROSPECTS FOR POLITICAL REFORM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





               ONE YEAR AFTER THE NOBEL PEACE PRIZE AWARD
                TO LIU XIAOBO: CONDITIONS FOR POLITICAL
              PRISONERS AND PROSPECTS FOR POLITICAL REFORM

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available via the World Wide Web: http://www.cecc.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
73-764 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001
















              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
FRANK WOLF, Virginia                 CARL LEVIN, Michigan
DONALD A. MANZULLO, Illinois         DIANNE FEINSTEIN, California
EDWARD R. ROYCE, California          JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  SUSAN COLLINS, Maine
MARCY KAPTUR, Ohio                   JAMES RISCH, Idaho
MICHAEL HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)














                             CO N T E N T S

                              ----------                               
                                                                   Page
Opening statement of Hon Christopher H. Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Walz, Hon. Tim, a U.S. Representative from Minnesota; Ranking 
  Member, Congressional-Executive Commission on China............     4
Link, Perry, Chancellorial Chair for Innovative Teaching, 
  Comparative Literature and Foreign Languages, University of 
  California, Riverside; Professor Emeritus, East Asian Studies, 
  Princeton University...........................................     6
Li, Xiaorong, Independent Scholar................................     7
Botsford Fraser, Marian, Chair, Writers in Prison Committee of 
  PEN International..............................................     9
Gershman, Carl, President, National Endowment for Democracy......    11
Chai, Ling, Founder, All Girls Allowed...........................    24
Wu, Harry, Executive Director, The Laogai Research Foundation and 
  Laogai Museum..................................................    26
Littlejohn, Reggie, President, Women's Rights Without Frontiers..    28
Fu, Bob, Founder and President, ChinaAid Association.............    30

                                APPENDIX
                          Prepared Statements

Link, Perry......................................................    42
Li, Xiaorong.....................................................    47
Botsford Fraser, Marian..........................................    49
Gershman, Carl...................................................    53
Chai, Ling.......................................................    55
Wu, Harry........................................................    77
Littlejohn, Reggie...............................................    79
Fu, Bob..........................................................    82

Smith, Hon. Christopher H........................................    84

                       Submission for the Record

The Chen Guangcheng Report: Coercive Family Planning in Linyi, 
  2005, drafted by Teng Baio, submitted by Reggie Littlejohn.....    87

 
 ONE YEAR AFTER THE NOBEL PEACE PRIZE AWARD TO LIU XIAOBO: CONDITIONS 
       FOR POLITICAL PRISONERS AND PROSPECTS FOR POLITICAL REFORM

                              ----------                              


                       TUESDAY, DECEMBER 6, 2011

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 12:05 
p.m., in room 2118, Rayburn House Office Building, Hon. 
Christopher H. Smith, Chairman, presiding.
    Also present: Representatives Tim Walz and Frank Wolf.
    Also present: Anna Brettell, Senior Advisor and Paul 
Protic, Staff Director, Congressional-Executive Commission on 
China.

    OPENING STATEMENT OF HON. CHRISTOPHER H. SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Representative Smith. The Commission will come to order, 
and good afternoon, everyone.
    One year after the independent Nobel Committee awarded the 
Nobel Peace Prize to Liu Xiaobo, who as we all know is a 
Chinese intellectual and democracy advocate, Liu remains 
isolated in prison thousands of miles away from his wife, who 
authorities are holding under house arrest in Beijing.
    In February 2010, I led a bipartisan group of lawmakers in 
nominating Liu Xiaobo for the prize, at the same time 
nominating two other persecuted human rights advocates, Chen 
Guangcheng and Gao Zhisheng, to be joint recipients as part of 
an international tide of support for the awarding of the prize 
to Liu Xiaobo.
    The Nobel Committee awarded the 2010 Nobel Peace Prize to 
Liu Xiaobo for his ``long and non-violent struggle for 
fundamental human rights in China.'' H. Res. 1717, which I 
authored, congratulating Liu on the awarding of the prize 
passed the House with a vote of 402 to 1 exactly one year ago.
    Chinese authorities, on the other hand, tried Liu and 
sentenced him to 11 years in prison for ``inciting subversion 
of state power,'' the longest known sentence for that crime, 
simply for exercising his internationally recognized right to 
free expression.
    According to Chinese authorities, Liu's conviction was 
based on Charter 08 and six essays that he wrote. Liu Xiaobo 
signed Charter 08, as we know, which is a treatise urging 
political and legal reforms in China based on constitutional 
principles. Charter 08 states that freedom, equality, and human 
rights are universal values of humankind, and that democracy 
and constitutional government are the fundamental framework for 
protecting these values.
    Characteristic of the Chinese Government, officials blocked 
access to Charter 08. They have questioned, summoned, and 
otherwise harassed a large number of Chinese citizens for 
contributing to, or signing, that document. Chinese officials 
apparently remained livid over the awarding of the prize to Liu 
and they continue in their campaign to malign Liu and the Nobel 
Committee.
    In addition, they have nearly suspended political relations 
with the Norwegian Government, claiming the awarding of the 
Peace Prize to Liu had done ``great damage'' to the relations 
between China and Norway. They blame the Norwegian Government 
because it ``supported this wrong decision.''
    The apparent violations of Chinese legal protections for 
defendants that have marred Mr. Liu's case from the outset are 
numerous and well documented. In addition, the United Nations 
Working Group on Arbitrary Detention determined that the 
Chinese Government's detention of Liu and the house arrest of 
his wife are indeed arbitrary.
    Mr. Liu's trial and sentence demonstrates once again the 
Chinese Government's failure to uphold its international human 
rights obligations and also its failure to abide by procedural 
norms and safeguards that meet international standards. While 
authorities did allow Liu to attend his father's funeral 
memorial service in October, they continue to limit visits from 
his wife. Over the past year, authorities have allowed her to 
visit her husband only on a very few occasions.
    Beijing authorities are holding Liu's wife in a de facto 
form of house arrest. They have cut off telephone and Internet 
service, and have made her house off-limits to visitors.
    As we all know, sadly, Liu Xiaobo is not alone. As of 
September 2011, the CECC's Political Prisoner Database, perhaps 
the greatest database in the world, contained information on 
1,451 cases of known political or religious prisoners currently 
detained. Chen Guangcheng is one of those prisoners. Chen is a 
blind self-taught legal advocate who advocated on behalf of 
farmers, the disabled, and women forced to undergo abortions.
    Authorities have held him under a form of house arrest in 
Linyi County, Shandong Province, since his release from prison 
in September 2011. In effect, Chen's prison sentence has not 
ended. Chen served over four years in prison on charges of 
``international destruction of property'' and ``organizing a 
group of people to disturb traffic.''
    His real crime, however, was publicizing the abuses of 
local one-child-per-couple policy officials and trying to use 
the Chinese legal system to seek justice for the victims of 
those abuses.
    For months officials have confined Chen and his wife in 
their home, beaten them, and subjected them to 24-hour 
surveillance. Officials have set up checkpoints around the 
village where Chen lives to prevent journalists and ordinary 
citizens from visiting him and his family.
    According to one report, 37 people who tried to enter the 
village in October were attacked by 100 thugs. Under great 
pressure, authorities recently allowed Chen's elderly mother to 
go out and buy groceries and other supplies and have allowed 
his six-year-old daughter to go to school, flanked, of course, 
by security, and have allowed Chen some medicines sent by 
supporters, although they have not allowed him to see a doctor 
about his egregious health problems.
    These small concessions mean little in the big picture. 
Publicly available laws do not seem to provide any legal basis 
for holding Chen and his family as prisoners in their own home. 
I would note parenthetically that as Chairman of this 
Commission I, and members and staff of this Commission, tried 
just a few weeks ago to meet with Chen on his 40th birthday. We 
were denied a visa. We will attempt to obtain a visa to visit 
China on a number of human rights issues, including visiting 
Chen Guangcheng.
    Then there's the case of Gao Zhisheng. Authorities' 
treatment of the greatly acclaimed lawyer Gao Zhisheng is even 
more shocking and illustrates the brutality of some officials. 
Officials revoked Mr. Gao's law license in 2005 in response to 
his brave efforts to represent fellow Christians accused of 
``illegally'' distributing Bibles and to defend workers and 
Falon Gong practitioners.
    In 2006, officials sentenced Gao to three years in prison 
on the charge of inciting subversion, but suspended the charge 
for five years. The five years suspended sentence is set to 
expire later this month. Today, however, there is no word about 
Mr. Gao's whereabouts.
    After Mr. Gao wrote an open letter to Congress in 2007 
criticizing China's human rights record, officials brutally 
tortured him for 50 days, beating him with electric prods, 
abused him with toothpicks, and threatened to kill him if he 
told anyone of the treatment.
    Mr. Gao disappeared into official custody in February 2009. 
When he resurfaced briefly in March 2010, he told friends that 
he would ``disappear again'' if his statements about his 
treatment by his captors since 2009 were made public.
    After authorities disappeared him again, the press went 
public about his torture, which included a beating with guns in 
holsters, for a period of over two days, which repeatedly made 
him feel close to death.
    It does not seem appropriate to talk about political 
reforms in China when there is so little progress in improving 
civil and political rights and when authorities continue to 
mistreat, abuse, and torture people like Liu, Chen, and Gao. 
The political prisoners for whom we have names are just a tip 
of the iceberg. No one knows how many citizens in China are 
persecuted for their religious or political beliefs.
    In mid-February 2011, Chinese authorities launched a broad 
crackdown against rights defenders, reform advocates, lawyers, 
petitioners, writers, artists, and Internet bloggers. 
International observers have described the crackdown as one of 
the harshest crackdowns on human rights advocates in years, if 
not decades.
    While authorities have released many of those people they 
detained in February, the rapidity and severity of the 
crackdown indicates Chinese authorities remain intolerant of 
freedom of speech and religion, and a whole host of other 
fundamental freedoms and rights.
    Perhaps the drafters of Charter 08 have it right. The 
Charter notes that China's policy of reform and opening has 
increased living standards and economic freedoms in China, but 
states that the ruling elite fights off any move toward 
political change.
    I'd like to yield to my good friend and colleague, the 
Ranking Member from the House side, Mr. Walz.

    STATEMENT OF HON. TIM WALZ, A U.S. REPRESENTATIVE FROM 
 MINNESOTA; RANKING MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Representative Walz. Well, thank you, Mr. Chairman. Thank 
you to all of our witnesses who are here. I can't tell you, as 
I say every time, the Chairman's passion, his long history of 
working on human rights unwaveringly, and the active nature of 
this Commission now is something I'm very proud of.
    The Commission staff, we have some of the best and 
brightest. They're compiling some of the best database, as you 
heard the Chairman say, on the issue of political prisoners of 
anywhere in the world, and for that I'm very proud.
    Probably most importantly, though, for the panelists who 
come before this Commission are some of the most inspiring, 
some of the most humbling people that I have ever been around 
because of the experiences and the expertise that it brings 
here, focusing on an issue that knows absolutely no political 
differences on this Commission and has continued to move 
forward on bringing the issue of human rights.
    It's not just about China and that's our focus and that's 
our Commission's mandate, but it's about setting the example, 
especially for our own country, that these are the things that 
are important to us. The Chairman's work has certainly 
propelled this of importance in the Congress as a whole.
    Once again, today we are blessed with several great panels 
that I'm really looking forward to to give us some insight of 
where we go next, because it truly is all about making sure 
that everyone has the right to those basic human rights and 
freedoms that we all care so deeply about.
    So, Mr. Chairman, thank you again for convening another 
great panel, and I yield back.
    Representative Smith. Mr. Walz, thank you very much. And 
thank you for your passion and for the knowledge you bring, 
having lived in China, and your comments and your leadership is 
greatly appreciated.
    I'd like to now introduce our first panel. I would just 
note, the picture on the right, which everyone will recognize, 
the empty chair. When Liu Xiaobo was awarded the Nobel Peace 
Prize, many of us, including many of our panelists, were there 
in attendance, as was I. It was a moving moment beyond words 
when not only was Liu Xiaobo not there, nor was his wife or 
anyone else allowed to stand in his stead to receive that very 
august prize.
    So, we lift up that picture. A picture is worth a thousand 
words. Let it go out from here, because all of you have been 
steadfast in this fight for human rights in China from day one. 
Liu Xiaobo and the others are not forgotten in the least. If 
anything, we are ratcheting up our efforts to secure his 
release and his freedom and that of people who have 
courageously borne the scars of human rights advocacy in the 
People's Republic of China.
    So I'd like to now introduce Perry Link, who is professor 
emeritus, East Asian Studies, Princeton University. He's 
currently teaching at the University of California in 
Riverside.
    Dr. Link recently co-edited a book on Liu Xiaobo's essays, 
which he just gave me a copy of and I deeply appreciate that, 
``No Enemies, No Hatred: Selected Essays and Poems,'' Liu 
Xiaobo. He also did a book entitled, ``Empty Chair: Chronicling 
the Reform Movement Beijing Fears Most.'' Previously he co-
edited the book entitled, ``The Tiananmen Papers,'' a 
collection of documents leaked by high-level government 
officials that helped chronicle events surrounding the 1989 
Tiananmen demonstrations and their suppression.
    Representative Smith. Then we'll hear from Li Xiaorong, who 
is an independent scholar and human rights activist who has co-
founded and served on the boards of Chinese human rights non-
governmental organizations. She was a research scholar at the 
Institute for Philosophy and Public Policy of the University of 
Maryland, where she also taught graduate courses. She has 
published a book on ethics and human rights and many academic 
articles. Her research projects have won support from many 
well-known foundations and organizations.
    Then we will hear from Marian Botsford Fraser, who is chair 
of the Writers in Prison Committee of PEN International. We all 
know that Liu Xiaobo was a former president of the Independent 
Chinese PEN Center. She is a Canadian writer, editor, and 
broadcaster. She is the author of three acclaimed non-fiction 
books. She has been an active member of PEN International since 
1991, including serving as president of PEN Canada. She has 
undertaken three freedom of expression missions on behalf of 
PEN International, including one to China in 2011.
    Then we'll hear from Carl Gershman, who has long been 
before this Commission and a great leader for human rights and 
democracy and is president of the National Endowment for 
Democracy, a private congressionally supported grant-making 
institution with the mission to strengthen democratic 
institutions around the world through non-government efforts.
    In addition to presiding over the endowments and grants 
programs in many countries around the world, he has overseen 
the creation of the Quarterly Journal of Democracy, 
International Forum for Democratic Studies, the Reagan Fasell 
Democracy Fellows Program, and the Center for International 
Media Assistance.
    So, welcome all four of our distinguished witnesses on 
panel one.
    Dr. Link, if you could begin.

  STATEMENT OF PERRY LINK, CHANCELLORIAL CHAIR FOR INNOVATIVE 
    TEACHING, COMPARATIVE LITERATURE AND FOREIGN LANGUAGES, 
 UNIVERSITY OF CALIFORNIA, RIVERSIDE; PROFESSOR EMERITUS, EAST 
              ASIAN STUDIES, PRINCETON UNIVERSITY

    Mr. Link. Thank you, Mr. Chairman. It's an honor to be here 
and I salute you and your colleagues on the Commission for your 
wisdom and your passion, obviously, in holding this important 
hearing.
    Liu Xiaobo is one of those unusual people who can look at 
human life from the broadest of perspectives and reason about 
it from first principles. His keen intellect notices things 
that others only look at, but do not see.
    Hardly any topic in Chinese culture, politics, or society 
evades his interest and he can write about upsetting things 
with analytic calm. We might expect this kind of steadiness in 
a recluse, a hermit poet, a cloistered scholar, but in Liu 
Xiaobo it comes in an activist. Time and again, he has gone 
where he thinks he should go and done what he thinks he should 
do as if havoc and the possibility of prison simply were not 
there.
    Fortunately for us, his readers, he writes utterly free 
from fear. Most Chinese writers today, including the best ones, 
write with political caution in the backs of their minds and 
under a shadow that looms as their fingers pass over their 
keyboards: What topics should I not touch? What indirection 
should I use? Liu Xiaobo does none of this. What he thinks, we 
get.
    His starting point almost always is deeply humane. For 
example, in this book he analyzes China's obsession with 
Olympic gold medals, those shining badges of state-sponsored 
chauvinism, from the viewpoint of six-year-old divers whose 
retinas are ruined for life by repeated impacts with the 
water's surface. He points out that Confucius, for all his 
fame, in fact, ranked pretty low among ancient Chinese thinkers 
in his sympathy for the poor and the oppressed. Liu surveys the 
political jokes that course through China today and notes that 
``in a dictatorship, the grins of the people are the nightmares 
of the dictators.''
    At his trial for subversion two years ago, Liu said that 
the bloody massacre on June 4, 1989, in Beijing, was a turning 
point in his own life. Every year since then on that date he's 
written a poem for the ``lost souls.'' In one of these he 
writes that ``at that moment the watching world was as a 
defenseless lamb/slaughtered by a blazing sun/Even God was 
stupefied, speechless.''
    Liu is different from most Chinese writers in his attention 
to transcendent values. He praises the great Chinese writer Lu 
Xun for an ability to look beyond mundane matters to problems 
of isolation and despair in the human condition. He describes 
how, on a visit to the Metropolitan Museum of Art in New York 
in 1988, he was suddenly overwhelmed to realize that his 
preoccupations with the specific problems of China seemed petty 
when measured against profound challenges to the human spirit.
    Liu sees the roots of Chinese problems today in its 
political system, not in people. He insists that no individual 
person, including any who prosecuted or imprisoned him, is his 
personal enemy. His ultimate goal is regime change, but done 
peacefully.
    On this point China's rulers, who charge him with 
subverting their power, actually see him correctly. They are 
also correct to perceive that his ideas would be broadly 
popular inside China if they were allowed to circulate freely, 
and that of course is why they are so eager to block them.
    Liu writes that change in China will be slow, but he is 
optimistic that unrelenting pressure from below from farmers, 
petitioners, rights advocates, and perhaps most important, 
hundreds of millions of Internet users, eventually will carry 
the day.
    Chinese people have always shown special reverence for 
Nobel prizes in any field, and this fact has made Liu Xiaobo's 
Peace Prize especially hard for the regime to swallow. When 
China's rulers put on a mask of imperturbability as they 
denounced Liu's prize, they are not only trying to deceive the 
world but at a deeper level are lying to themselves.
    When they try to counter Liu's prize by inventing a 
Confucius Peace Prize and then give it to Vladimir Putin, 
citing his ``iron fist'' in Chechnya, there is a sense in which 
we should not blame them for their clownish appearances because 
these spring from an inner panic that they themselves cannot 
control.
    Liu Xiaobo sits in prison, in physical hardship, but in his 
moral core there can be no doubt that he is much more at peace 
than the men who oppress him.
    Thank you.
    Representative Smith. Dr. Link, thank you very much for 
your testimony.
    Now I'd like to ask Li Xiaorong to proceed.
    [The prepared statement of Mr. Link appears in the 
appendix.]

         STATEMENT OF LI XIAORONG, INDEPENDENT SCHOLAR

    Ms. Li. Thank you, Mr. Chairman, for this opportunity to 
speak at this special occasion. One year after winning the 
Nobel Peace Prize, Liu Xiaobo continues to languish in a 
Chinese prison without regular family visits. His wife, Liu 
Xia, has been under illegal house arrest. Liu Xiaobo's family 
has been under heavy pressure to keep silent, and only recently 
was able to convey some information about his current situation 
to the press.
    One of Liu's brothers reportedly said that Liu Xiaobo was 
allowed briefly out of prison on September 18 to mourn his 
father's death, and that his brother and Liu Xia were each 
recently allowed a rare opportunity to visit Liu at the Gingo 
Prison.
    Back in 2009, on December 25, Liu Xiaobo was convicted of 
inciting subversion of state power by the Beijing Number One 
Municipal Court. Liu was sentenced to 11 years in prison, with 
2 years' deprivation of political rights. It was one of the 
longest sentences handed down for the so-called crime of 
inciting subversion of state power in recent years.
    Officials left no doubt that the legal system, despite any 
promise of reform, was simply the Communist Party's tool to 
stamp out its critics, and that the crime of inciting 
subversion of state power is so vaguely ill-defined that it can 
be conveniently used by the CCP to serve their political 
purposes. Liu's conviction was based entirely on his writings, 
expressions of his political opinions, and his non-violent 
activities.
    From the time of the arrival of a policeman at Liu's 
apartment in Beijing on the evening of December 8, 2008, to his 
imprisonment incommunicado today, the prosecution of Liu Xiaobo 
has been marred at each step by violations of his legal 
constitutional rights and international human rights.
    For instance, from December 8, 2008, to June 23, 2009, Liu 
was held under residential surveillance at an undisclosed 
location in Beijing. Except for two police-escorted visits by 
his wife, Liu had no contact with the outside world.
    Once Liu's case was turned over to the Beijing municipal 
prosecutor's office in early December 2009, his lawyers were 
given very little time to prepare his defense. During the trial 
of December 23, 2009, Mr. Liu and his defense lawyers were not 
allowed to fully present their defense in court. The presiding 
judge interrupted Liu Xiaobo and cut him short during his 
prepared remarks.
    Liu's two lawyers were given a total of less than 20 
minutes to present their arguments. Liu's trial was essentially 
closed to the public. With the exception of two family members, 
all other spectators in the small courtroom were young males in 
plainclothes, apparently put there to occupy the seats in order 
to keep Liu's other family members and supporters and observers 
from the diplomatic community out of the way.
    Liu's wife, Liu Xia, was denied permission to attend the 
trial. The practice of unlawful secret detention prior to Liu 
Xiaobo's sentence has profound ramifications and a chilling 
effect in the country's rapidly declining climate for rule of 
law reform in the last few years.
    Since then, the same kind of secret detention and forced 
disappearances have been applied on multiple occasions, for 
example, to many activists and lawyers during the government 
crackdown and online calls for tradition-style Jasmine 
revolution protests last February and to the artist Ai Weiwei.
    In February, within a few weeks, a total of 52 individuals 
were criminally detained and at least 24 were subjected to 
forced disappearances, 5 were sent to reeducation through labor 
camps, 4 were placed under illegal residential surveillance, 
and 2 were held in psychiatric hospitals.
    As we speak--a draft revision of the Chinese criminal 
procedure law is under consideration in the National People's 
Congress, the government is trying to legalize such secretive 
detention or forced disappearances.
    If anyone had expected that the government would take some 
positive steps toward honoring the spirit of the Peace Prize 
and improve the human rights situation in China as a result of 
the historical decision, one would be very disappointed. 
Awarding Liu Xiaobo the prize was no doubt a game-changer; it 
drew unprecedented scrutiny to the government's systematic 
human rights abuses since 1989.
    After the Peace Prize, together with other precipitous 
events, the once-popular argument that when it comes to China 
there should be somehow double standards and human rights 
concerns should not get in the way of U.S. trade and strategic 
priorities has somehow seemed to be on the defensive.
    The question remains, however, whether the international 
community is doing anything effectively or doing enough to 
support those Chinese who risk their own lives and liberty to 
fight for democracy and human rights, such as Liu Xiaobo, Chen 
Guangcheng, Gao Zhisheng, Liu Xianbin, Chen Wei, Wang Lihong, 
Ni Yulan, and the many, many others.
    Thank you.
    Representative Smith. Thank you very much, Ms. Li, for your 
testimony.
    I'd like to now ask Ms. Botsford Fraser to proceed. Let me 
just note that we're joined by Chairman Frank Wolf, who is not 
only a member of this Commission, but also co-chairs the Lantos 
Human Rights Commission and is the subcommittee Appropriations 
Chair for the justice and other agencies on the Appropriations 
Committee. So we're glad to have him here.
    [The prepared statement of Ms. Li appears in the appendix.]

 STATEMENT OF MARIAN BOTSFORD FRASER, CHAIR, WRITERS IN PRISON 
                 COMMITTEE OF PEN INTERNATIONAL

    Ms. Botsford Fraser. Thank you, Chairman Smith, members of 
the Commission. I am Marian Botsford Fraser and I chair the 
Writers in Prison Committee of PEN International. I'm very 
grateful to the Commission for the opportunity to reflect on 
the situation of Liu Xiaobo, who is a PEN colleague and a 
former president of the Independent Chinese PEN Center [ICPC], 
and also on the prospects for greater freedom of expression in 
China.
    Since 1921, PEN International has been fighting for freedom 
of literature and freedom of expression. We currently have 144 
PEN centers in more than 100 countries worldwide.
    In Liu Xiaobo's case and in all of our advocacy, PEN is 
guided by the human rights norms that countries around the 
world are required to uphold. The right to freedom of 
expression is enshrined in both the Universal Declaration of 
Human Rights created 63 years ago and the International 
Covenant on Civil and Political Rights [ICCPR]. Only 19 nations 
have not signed the ICCPR. The People's Republic of China is 
among seven states that have signed the covenant but haven't 
yet ratified it.
    Liu was sentenced in December 2009 to 11 years in prison 
for seven phrases extracted from his essays and from Charter 
08, which he had helped to draft. In none of those phrases did 
Liu call for the overthrow of the government. He expressed his 
opinions, he offered critiques of current realities, and 
considered ways to make life in China more democratic and more 
just.
    I was honored to be part of a PEN delegation at the Nobel 
Peace Prize ceremony in Oslo last year. We were gratified by 
the international recognition of Liu's efforts to promote 
peaceful change in China, but we were saddened by the Chinese 
authorities' response and the subsequent crackdown, which 
included the arrest of Liu Xia.
    That crackdown was followed early this year by another even 
more severe wave of repression, this one targeting dissent 
thought to have been inspired by uprisings in the Middle East.
    This summer I was part of a PEN delegation that went to 
Beijing to gauge the level of repression and current climate 
for freedom of expression and to deliver a message of 
solidarity to our colleagues. What we found was a mixture of 
absurd restrictions and repression on the one hand, and 
positive signs and hope on the other.
    In Beijing, 11 of 14 writers invited to the U.S. Embassy 
for a discussion about freedom of expression were prevented 
from attending, many after visits and warnings from the guobao, 
the security police. We could only assume that their telephone 
and Internet communications were monitored and that the 
Embassy's may have been as well.
    Other private meetings with individuals we arranged were 
also canceled after visits from the guobao. We had also hoped 
to meet with Liu Xia, but with her Beijing compound guarded and 
her communication lines cut, we were cautioned not to attempt a 
visit, nor could we visit with Teng Biao and Ye Du, two other 
members of ICPC who were rounded up earlier this year, also 
being held incommunicado in their homes. This was discouraging.
    We were appalled by the intrusiveness and sheer size of the 
surveillance state and the severity of restrictions imposed on 
our PEN colleagues. The Chinese Government still doesn't allow 
the ICPC to function fully inside the country and Liu Xiaobo is 
only 1 of 40 writers in prison in China whose cases PEN is 
following today.
    At the same time we were surprised by the widespread 
dissatisfaction with the state of freedom of expression in 
China. Many of the writers we met with, even those not 
considered dissidents, decried the level of censorship and 
self-censorship and the one-party system behind this 
repression, censorship that extends its tentacles deep into the 
literary life of China, into bookshops where bookshop owners 
are beaten and prevented from holding literary events.
    The frank expressions of those we met in Beijing seem to 
mirror the aspirations of China's citizens. At the end of our 
trip, a high-speed train collided with another outside the city 
of Wenzhou, killing 40 people and injuring almost 200. The 
government's attempts to cover up this tragedy, which included 
literally trying to bury the train at the scene, sparked 
outrage around the country. In five days, Chinese citizens 
posted 25 million messages critical of the government's 
handling of the accident on China's microblogs, or weibos.
    That campaign, unprecedented in its breadth and tenacity, 
has since been emulated in several other scandals and 
tragedies. Similarly, Chinese citizens who want to comment on 
the kinds of politically sensitive topics that dominate Liu 
Xiaobo's essays are finding new ways to elude the censors, 
using word-play, humor, satire, posting photographs of 
themselves silently supporting political prisoners, as in the 
dark glasses campaign for the blind lawyer Chen Guangcheng.
    Citizens are beginning to ask why this lawyer was being 
confined inside his home after his release from prison. Murong 
Xuecun, a well-known and popular writer, recently documented 
his own attempt to visit Chen and the beating he got when he 
did. In a harrowing account published in The Guardian he said, 
``We just wanted to verify what it takes in this country, at 
this time, to visit an imprisoned free man.''
    This surge of activism, citizens simply asking the question 
``why,'' lends hope that China is changing. People are coming 
to realize, as Murong said of Chen Guangcheng, that ``at the 
moment his freedom was arbitrarily being taken away, your 
freedom came under threat.''
    When Liu Xiaobo was awarded the Nobel Peace Prize last year 
the Nobel committee chairman, Thorbjorn Jagland, noted that the 
severe punishment imposed on Liu made him more than a central 
spokesman for human rights. Practically overnight he became the 
very symbol, both in China and internationally, of the struggle 
for such rights in China.
    So on the anniversary of that date, PEN would like to 
thank, again, the Norwegian Nobel Committee, this Commission, 
and all governments, organizations, and individuals around the 
world that have stood with Liu Xiaobo. We ask everyone to 
redouble their efforts so that by this time next year he and 
his wife Lui Xia are free.
    Thank you.
    Representative Smith. Ms. Botsford Fraser, thank you very 
much for your testimony and for your leadership.
    I would just note that if anyone has to leave, our 
witnesses or anyone who is so interested, we hope to have 
everyone who would like to sign that picture and when Liu 
Xiaobo gets to accept his Nobel Peace Prize someday--God 
willing someday soon--in person, when he makes his way to 
Washington we would like to present him with that.
    Carl Gershman?
    [The prepared statement of Ms. Botsford Fraser appears in 
the appendix.]

 STATEMENT OF CARL GERSHMAN, PRESIDENT, NATIONAL ENDOWMENT FOR 
                           DEMOCRACY

    Mr. Gershman. Thank you, Mr. Chairman. It's wonderful to 
see you again.
    I've been asked to address, briefly, three issues: The 
impact of China on global democratic trends, including the 
significance of the so-called China model of authoritarianism; 
the prospects for democratic reform in China, including the 
necessary pre-conditions for democratic institutions; and, 
finally, the influence of the Nobel Peace Prize on Chinese 
society and official policy.
    Regarding China's impact on global democratic trends, it's 
now common knowledge that China exerts an anti-democratic 
influence in world politics. Liu Xiaobo has said that China 
serves as a ``blood transfusion machine'' for smaller 
dictatorships in North Korea, Cuba, and elsewhere.
    In addition to providing economic and political support to 
such regimes, it shares tactics bilaterally with autocrats such 
as Lukashenko in Belarus, Mugabe in Zimbabwe, and Chavez in 
Venezuela; and it cooperates multilaterally with Russia and the 
Central Asian countries through the Shanghai Cooperation 
Organization.
    China also projects its system of authoritarian capitalism 
as an alternative model to the system of democracy with a mixed 
economy that exists in the United States, Europe, and many 
other countries around the world. There are some people in this 
country who are persuaded of this model's effectiveness. Just 
last Thursday the SEIU's [Service Employees International 
Union] former president, Andy Stern, published an article in 
the Wall Street Journal entitled, ``China's Superior Economic 
Model,'' that praised its system of central planning.
    But this model is flawed for three fundamental reasons. 
First, as Liu Xiaobo pointed out in his 2006 essay ``Changing 
the Regime by Changing Society,'' two decades of reform have 
eroded, to one degree or another, each of the four pillars of 
China's totalitarian system. Comprehensive nationalization is 
giving way to a system where independent economic activity 
``has given individuals the material base for autonomous 
choices.''
    The system of ``all-pervasive organization'' that 
eliminated all independent activity ``is gone and never to 
return,'' according to Liu, and society is now ``moving toward 
freedom of movement, mobility, and career choice.''
    The ``mental tyranny'' of an imposed ideology has succumbed 
to the information revolution that has awakened individual 
consciousness and awareness of one's rights. While the fourth 
pillar of political centralization and repression remains, 
according to Liu people have lost their fear of repression and 
the victims of persecution, far from being socially isolated 
and humiliated, now ``inspire reference'' in the society and 
are able to put their accusers ``into the moral position of 
being defendants.''
    The second reason the model is flawed, according to Yu 
Jiangrong, the well-known Chinese scholar and sociologist, is 
that it is characterized by ``rigid stability'' and 
``dichotomized black-and-white thinking'' in which the 
``expression of people's legitimate interests''--land issues 
for peasants, wages for workers, homeowner rights for urban 
residents, minority rights for Tibetans, Uyghurs, and 
Mongolians--becomes a threat to the social order and is 
adamantly opposed.
    A rigid system, according to Professor Yu, is by definition 
brittle and can break under stress. It lacks the resilience of 
democracy where government is accountable and conflicts can be 
resolved lawfully. Professor Yu indeed fears that without such 
resilience, China will not be able to escape what he calls 
``the tragic fate of two millennia of the cycle of alternating 
chaos and order.''
    The third flaw is that the Chinese regime lacks political 
legitimacy. It has achieved a degree of performance-based 
legitimacy by using market reform to generate material wealth. 
But such legitimacy is inherently unstable since it is not 
immune to the business cycle, which is why Chinese Premier Wen 
Jiabao, speaking after the National People's Congress in 2007, 
described the economy as ``unstable, unbalanced, uncoordinated, 
and unsustainable.''
    No wonder the recent spike in worker protests in Guangdong 
has caused such alarm in Beijing. Without the authority that 
derives from receiving popular consent, Andrew Nathan has 
written, the Chinese regime lives ``under the shadow of the 
future, vulnerable to existential challenges that mature 
democracies do not face.''
    Regarding the preconditions and possibility for China's 
democratic transition, the picture is mixed. The brightest area 
is media liberalization, with social media and the Internet as 
a whole driving traditional media over the past five years. As 
Liu Xiaobo noted, this has spread democratic values, including 
rights, awareness, and the desire to hold the government 
accountable.
    Even though those most active with social media only 
account for 40 percent of the Chinese Internet users and 14.2 
percent of all Chinese, they are having an impact throughout 
the society, and even workers using cell phones and social 
networking platforms use it to organize informally, despite 
official restrictions.
    Less encouraging is the fact that civil-society 
organizations continue to be highly restricted. The immense 
Chinese countryside remains woefully underserved by civil-
society organizations. Most democrats now look to the rights 
defense movement as a critical way to advance the possibility 
of a transition. With increasingly broad participation and a 
convergence between middle class and working class, this 
movement strives to bring the struggle of workers and farmers 
into the mainstream. It is pushing for concrete gains in the 
rule of law and more distributive justice. But with the 
government showing no interest in giving this movement space, 
the conditions for a gradual and peaceful transition are 
limited.
     The concern of many Chinese activists is that increasing 
repression will delay a regime transition for so long that, 
when it does happen, which they think is inevitable, it will be 
accompanied by bloodshed and social turbulence. Thus, the 
probability of the regime surviving in its current form 
dwindles, along with the possibility for a peaceful transition 
and democratic consolidation.
    Finally, regarding the influence of the Nobel Peace Prize, 
I think it deepened the Chinese Government's legitimacy crisis. 
For one thing, as The Economist noted at the time, Beijing's 
disastrous response to the prize portrayed for the whole world 
to see ``the government's insecurity at home.'' And it didn't 
help when the audience of thousands rose in repeated standing 
ovations as Liv Ullmann read ``I Have No Enemies,'' Liu's final 
statement at his trial, with his empty chair of honor 
constituting a powerful indictment of the regime.
    With all its stirring symbolism, the Nobel ceremony 
represented the confirmation by the international community of 
the sentiments of a good part of the Chinese society. As Liu 
himself said three years before the Nobel award, political 
persecution ``has gradually turned into a vehicle for advancing 
the moral stature of its victims, garnering them honors for 
being the `civic conscience' or the `heroes of truth,' while 
the government's hired thugs have become the instruments that 
`do the dirty work.' '' Herein lies China's hope. May its 
leaders begin to listen to such heroes before it is too late.
     Thank you.
    Representative Smith. Mr. Gershman, thank you very much for 
your testimony.
    I'd like to yield to Chairman Wolf, if he has any comments 
to make.
    Representative Wolf. Thank you, Mr. Smith. I believe you 
were there in Oslo. Yes, I do have a question. Is that what 
this is for?
    Representative Smith. Or comments.
    Representative Wolf. I'll wait for questions. Go ahead.
    Representative Smith. Okay. Thank you.
    Let me just ask a few opening questions, if I could. First 
of all, thank you all for your very eloquent statements on 
behalf of Liu Xiaobo and all of those who are languishing in 
either the laogai or some detention center, being tortured, 
mistreated because they espouse a human rights policy that 
unfortunately the Chinese Government finds objectionable.
    Paradoxically, Liu saw gradual and incremental change en 
route to full and unfettered democratization, yet the highly 
visible and unjust incarceration and detention ongoing, dissing 
the entire free world that rallied around him and the others, 
but certainly in Oslo--I mean, the sentiment, which continues 
unabated, was extraordinarily strong.
    But it seems to me that denying Liu the award, denying him 
the release from prison underscores Beijing's insecurity and 
weakness. I like what you said, Dr. Link, when you quoted him, 
``utterly free from fear.'' The fear is in the government, it's 
not in the Gulag.
    It seems to me that this pushes China toward a tipping 
point faster and I think the end of this dictatorship and the 
matriculation of democracy is likely to happen sooner rather 
than later because of this highly insecure government and the 
way it has reacted. So I would like to ask you, at best the 
Chinese Government has mismanaged this.
    I mean, in broad daylight, with all eyes wide open, they 
not only have kept him in prison, and others, but the way--and 
those of us who were in Oslo were shocked, and maybe not 
shocked, about how the Chinese Government went into overdrive, 
propaganda-wise, to hurl insults and accusations against him, 
against the Norwegian Government, and all the others.
    So they have mismanaged it certainly from a public 
relations point of view, as well as from a governmental point 
of view. Is it that their arrogance is so high, are they so 
insecure, or is it that they think there is no sustainable 
penalties that might be meted out to them, particularly as they 
go around the world with some nouveau cash in their pocket to 
seemingly help some of the struggling countries in Europe and 
elsewhere.
    Why are they so brazen? Anybody like to take that? Carl?
    Mr. Link. I think you're right about the insecurity, yes. 
On the question of whether they feel there are no penalties 
around the world out of a kind of an arrogance that money can 
do anything for them, I think that's part of the answer, too. I 
think ``both'' is the answer to your question. It's an inner 
insecurity as well as a new-found confidence, if that's the 
word, that money can do anything.
    Liu Xiaobo has written about this as well, that the new way 
to control everything in Chinese society now is money. In the 
Mao era it was power and thoughtwork and so on, but money is 
playing that role now. But still, it's a seal atop a twisting 
ball, is the metaphor I like. I think they're constantly having 
to adjust and feel insecure, so I think you're quite right 
about that.
    Mr. Gershman. I don't think it's unique. I think around the 
world you have dictatorships that hold onto power and behave in 
a very brazen way. China's brazenness is increased by its size. 
It's a big country and has growing power in the world, and it's 
throwing its weight around. But what I find remarkable is the 
degree of its insecurity.
    It derives from the fact that its economic performance is 
creating divisions in the society, the feeling on the part of 
the masses that they're not benefiting from the growing wealth. 
And so you're seeing great disturbances as workers get laid 
off. They don't have any means for representation.
     The regime has also lost moral legitimacy, which we know 
from past experiences is ultimately the most important thing. I 
remember once Elena Bonner saying that back in the 1970s they 
were just 11 dissidents with a typewriter, and look what 
happened to the Soviet Union. This frightens regimes today.
    Representative Smith. Yes.
    Ms. Botsford Fraser. I think the level of desperation is 
demonstrated also in the way in which the surveillance state is 
functioning within the country and the degree to which it 
hampers people at the most ordinary levels of life. For 
example, one of the people that we met with in Beijing who was 
allowed to come to the U.S. Embassy meeting, hasn't actually 
done anything bad since 1998. He has not been detained and he 
has never been accused of anything, and yet he's under constant 
surveillance all the time.
    So I think that this indicates a level of a sort of almost 
haphazard and kind of frantic, desperate sort of surveillance, 
sort of just scattershot, really.
    Ms. Li. I would just add to that, insecurity, arrogance, 
mismanagement, and panic. It was a profound sense of 
unpreparedness and shock that this small country, Norway, a few 
people on the Nobel Peace Committee, would dare to do this to 
China. So I think this has provoked a certain soul-searching 
and it is an indication that the regime, as Carl said, is 
degenerating into a sort of profound lack of moral legitimacy, 
both in society and within the government.
    Representative Smith. I appreciate that.
    Mr. Gershman, you mentioned Elena Bonner. Twice, she 
testified here, right where you sit, and made very similar 
comments about the importance of a few people having a profound 
impact when they stand firm. But they do need the support of 
other countries like the United States, like our European 
friends, like friends in Africa, Latin America, and everywhere 
else in the world who cherish and believe in fundamental human 
rights.
    I am wondering if, one year later, we have done enough to 
ensure that Liu Xiaobo is, (A) not forgotten in any way, shape, 
or form; and (B) that his cause and the cause of the others is 
kept front and center. I would note parenthetically that we had 
a press conference and hearing to express great disappointment 
that when Hu Jintao was here, many people in this room raised 
the case of Liu Xiaobo and Gao and Chen, and many others, very 
strongly and with great detail, including the Commission, 
including the Human Rights Subcommittee, which I chair, and it 
was never even mentioned, publicly at least--maybe privately.
    But the Associated Press asked a great question, and all of 
a sudden there is a problem with communications at the joint 
press conference with President Obama and Hu Jintao and he 
couldn't answer it for some reason. The President said 
something that I hope he retracts, President Obama, that they--
they, being the Chinese--have a different culture and they have 
a different political system.
    That rubbed even the Washington Post profoundly the wrong 
way, which did a huge editorial, ``Obama Defends Hu Jintao on 
Rights Issues.'' A different culture? Harry Wu spent 20 years 
in the laogai being tortured. Bob Fu spent time there as well, 
who will testify later. They understand perfectly human rights 
and democracy. The culture is profoundly in favor of these 
rights, so I do hope our own administration does more and in a 
much more visible way.
    Your comments on that? I mean, this is a bipartisan 
Commission. We speak out. Right before the Olympics when 
President Bush was being not as strong as he could be--as a 
matter of fact, weak, to some extent--on human rights in China, 
Mr. Wolf and I went to China right before the Olympics, brought 
the Commission's list of prisoners, and were very unhappy with 
our own ambassador, and even Condoleeza Rice, who was talking 
about what venue they wanted to attend, was it swimming, was it 
track and field, rather than going to prisons and trying to 
promote the reform agenda. So there's no partisanship here. I 
would hope the administration would do more. Any comments you 
might want to have on that?
    Mr. Gershman. I recall, Mr. Chairman, that at the NDI 
[National Democratic Institute] dinner at the beginning of 
November, Secretary Clinton, talking about the Arab Spring, 
said that we can walk and chew gum at the same time. In other 
words, we can support democracy even as we work on the very 
practical issues that the Administration must address with the 
governments in the Gulf, or in this case, China.
    I think striking that balance is key. We recognize that the 
United States has great interests with China--economic 
interests, political interests, and so forth. But that in no 
way should prohibit us from also expressing the strongest 
support for democracy and human rights. There's no 
contradiction there. The Administration has said it themselves. 
I think they're increasingly following it in their policies, 
and I hope they'll continue to do that.
    Representative Smith. Well, I would just take one 
disagreement with the ``continue.'' I hope they will do it. I 
mean, Mrs. Clinton did say that she was not going to allow 
human rights to ``interfere'' with climate change and peddling 
U.S. Treasury debt. And I say that with respect to the 
Secretary of State. This man, and all of these men and women, 
are suffering irreparable harm to their bodies and minds in 
these horrific Gulags and we need to be much more visible and 
louder.
    Mr. Walz?
    Representative Walz. Well, thank you, Mr. Chairman. I'll 
probably piggy-back a bit on that. I absolutely refuse to 
believe that we need to capitulate our stances on human rights 
with this false choice of upholding human rights versus 
economic growth. I think that's a trap. I don't believe it. I 
think you can certainly do both and we can demand that of our 
trading partners.
    I think what we're trying to understand, and I said when I 
came to this hearing that I think, unfortunately, maybe the 
Chairman is right, this is one of the small outposts of this 
being spoken of. Sometimes this type of discussion is not 
accepted in polite company in Washington because we may offend 
someone over our trade policies. I think we need to reset that. 
We need to reset that approach to it. It certainly doesn't mean 
that we live in our own glass house and understand that we need 
to do things ourselves, but it's this quest to try and get 
human rights to the forefront.
    My question to all of you is one that I always try and 
understand on these panels. This discussion here can be for 
domestic consumption, but what I'm most proud of is that door 
is open and we're quite aware that this ends up getting back. 
We hope it gets back to folks in China who maybe somewhere down 
along that bureaucratic line, listen a little bit.
    What are our best approaches to this? What are the best 
ways to ensure--what I'm always trying to understand, and I 
tell this story, I did spend some time living in China in the 
1980s and I traveled back--I always say 34 times, but because 
it's China, every time I went I learned a little bit less and 
I'm one trip from knowing nothing about China, because I'm 
always trying to understand the people, and this dichotomy I 
have with a regime that doesn't seem to honor those ideas, but 
a people who do on an individual and a community basis. I'm 
trying to figure out, what can we do?
    What is the best way? What are the things the Chairman is 
talking about, of asking the administrations, regardless of 
politics? How do we best help people like Liu Xiaobo and how do 
we help the average person who is not a Nobel Prize recipient, 
but is sitting there in their home thinking things could be 
different? Can any of you help me try and--from your experience 
and understanding?
    Mr. Link. I'm madly flipping through the book here because 
Liu Xiaobo himself addresses this question. If I can find the 
quote in a few minutes, I'll read it to you.
    Representative Walz. Okay.
    Mr. Link. But he, in receiving a prize in San Francisco in 
2002, where he was barred from going but he sent a statement, 
said--and this isn't verbatim, but his idea was--it's 
profoundly uplifting for us to hear the goodwill expressions of 
human beings in other parts of the world in support of our 
work.
    I would argue that it's not only to the dissidents that it 
means a lot, but precisely because of the Elena Bonner 
phenomenon. You have a few people at typewriters who are called 
``dissidents.'' In fact, they are spokespeople for much larger 
groups of people who don't dare to speak out. After all, what 
is it that makes a dissident? It's the willingness to put your 
head on the line.
    Everybody else is watching, and when the principle can be 
articulated people who otherwise are silent feel enthusiasm 
from within. So I think the short answer to your question is 
that human beings everywhere, including us and our government, 
ought to make clear moral statements about what's going on.
    Representative Walz. I couldn't agree more.
    Mr. Link. And have it be out there, and it'll be heard by 
people who don't dare to speak. Lots of people who don't dare 
to speak.
    Representative Walz. Thank you.
    Do you dispel this myth that the sociological factor that 
the Chinese quest for stability in some cases outweighs that 
quest for individual personal justice? This idea of, don't rock 
the boat, because when the boat's been rocked in the past we've 
had decades of unrest. Do you reject that as a reason that the 
Chinese--we hear this sometimes, that the Chinese public is not 
themselves as concerned with pushing this as are the diaspora, 
for lack of----
    Mr. Link. Yes. I think that's a technique of the ruling 
elite. If you look at the history of the Communist experience 
in China and ask the question, where has chaos originated----
    Representative Walz. Yes.
    Mr. Link. From the top. Mao Zedong created more of it than 
anybody else. The Tiananmen massacre was from the top. The 
wealth gap between rich and poor that Carl refers to as 
creating so much stability is because the power elite hangs on 
power and wealth.
    Representative Walz. Yes.
    Mr. Link. The causes of chaos and instability are from the 
top, not ordinary people. So I think that's an utterly false 
argument. It's very smart for the regime to use it in their 
ruling techniques. I mean, they could have read Machiavelli on 
``The Prince'' on how to do this. But should we take it 
seriously? No, not at all.
    Representative Walz. If I could ask Ms. Botsford Fraser, 
what's being passed around amongst Chinese people that they're 
reading, if you know, of things that are inspiring them? I 
watched this, having worked in being with my friends for some 
time, and it would be after work drinking a beer and then they 
would tell the jokes.
    I found it--I tried to listen to the Chinese political 
jokes. One of the problems was, they many times relied on a 
play on words of the Chinese language, and my Chinese was so 
weak that I laughed out of courtesy, not because I got it. But 
I found that those jokes, when I did understand them, were very 
telling, how people were seeing it. I am wondering from a 
writer's perspective or how you see it, what are they saying?
    Ms. Botsford Fraser. Certainly when we were there we had 
the impression of a very deep and very rich and very lively 
literary culture and a very sophisticated literary culture, and 
it's one where individual writers understand the need to speak 
both to the citizens of China and also the outside world, and 
they're quite strategic in how they decide to manage that, to 
manage their own careers in terms of the kinds of books that 
they publish.
    So I would say that it's a very rich culture. I am not a 
Chinese speaker and I don't know the literature, but I 
certainly had that sense of a very dynamic culture. But I think 
the other aspect of this is the changes in technology and the 
way that social media and the way that figures like Ai Weiwei, 
for example, have dramatically changed the way that Chinese 
citizens are speaking to one another and the kinds of--you 
mentioned the political jokes, the imagery, the satire, the 
ways that all of these things are sort of spreading across 
social media and become the sort of--the language of how people 
understand their situation.
    And I think for a lot of people one of the turning points 
is not only the issues such as freedom of expression, which has 
now become an issue that affects everybody because everybody 
wants to have a cell phone and be able to use it, and suddenly 
freedom of expression isn't an abstract thing, it's about me 
being able to use my cell phone and me being able to read the 
Internet in countries all around the world.
    But it is also about the identification that people like Ai 
Weiwei have introduced into the broader culture, the younger 
culture, where people get it. They get those kinds of visual 
images.
    Representative Walz. Yes, that's the thing. And Mr. 
Chairman, thank you for indulging me. I'll leave you with this. 
I was thinking right prior to June 4, I remember it just stood 
out for me. I thought it was a very funny short joke and I 
thought it really exemplified what was happening prior to the 
spring revolution. This must have been in 1988.
    Someone told me it was President Reagan--it dates you on 
this--but President Gorbachev and Deng Xiaoping all got the 
opportunity to meet God. And President Reagan said, when will 
America be truly free and democratic and open? And God said, 
oh, 25 years, and President Reagan cried. President Gorbachev 
says, when will the Soviet Union, Russia, become truly free and 
open? He said, it'll be 50 years, and President Gorbachev 
cried. And then Deng Xiaoping said, when will China be truly 
open and free? And God cried.
    The issue at the time was, and you could tell, there was 
something happening in the society. I just say this as a small 
thing, and it's a writer's piece of it, in honoring someone 
like Liu, that there's a profound understanding of the culture 
that we need to understand and what we can do to facilitate 
that. So, thank you for indulging me, Mr. Chairman, and thank 
you.
    Representative Smith. Thank you.
    Chairman Wolf?
    Representative Wolf. Thank you, Mr. Smith. I'll thank both 
of the members for their comments and questions. I have been 
encouraged by listening to your comments. They express the 
feelings that I have, but I think you all have forgotten more 
about China than I will ever know, so you validate some of the 
things that I think are going to happen or are happening.
    To ask you a couple of questions, does Liu's wife--can she 
have visitors? If someone were to fly there and just say, we're 
going to take a cab over, can you visit? Can you knock on the 
door? Can you go inside?
    Ms. Botsford Fraser. When we were there we were told no, 
that we absolutely would not be able to. I will say that the 
diplomatic community in Beijing tries very hard to visit Liu 
Xia. They make a point of going to her compound and asking 
permission to visit her and they are denied permission to visit 
her. This happens over and over again, and it is done by almost 
all--not all, but a large number of the embassies in Beijing 
make this effort.
    Representative Wolf. Has the American Embassy ever made the 
effort?
    Ms. Botsford Fraser. Yes, they have. All of the embassies 
do this on a regular basis. They see this as part of their 
mandate there.
    Representative Wolf. Second, where do you think we are in 
the timeline if we had to compare China with the Soviet Union? 
And we know how it collapsed. I think you could do this in an 
appropriate way. If you recall, Ronald Reagan said--in 1983, he 
said, ``Tear down this wall,'' and then he goes to the Danilov 
Monastery and gives a very powerful speech, and yet Gorbachev 
comes to his funeral.
    So you don't have to be just--you can raise human rights 
and religious freedom concerns in an appropriate way. But where 
do you think we are in China compared to the Soviet Union 
today? Are we in 1979? Are we 1983? Are we 1986? Where do you 
think we are? Not hope we are, think we are.
    Mr. Gershman. Mr. Chairman, no one can really precisely 
answer that question. Most people didn't anticipate the fall of 
the Soviet Union, and there are significant differences with 
China, one being China's economic success today. That's a 
significant difference. The second is the nationalities issue. 
The Soviets had a much larger nationalities problem than the 
Chinese have.
    However, I come back to this issue of stability. They're 
worried about it. I quoted Yu Jianrong earlier, that they don't 
have real stability, the stability that comes with resilience. 
China has a very brittle system. If they go through an economic 
crisis, if this growth doesn't continue, it could break and we 
do not know when that's going to happen.
    The other major difference between the two periods is the 
Internet. During the Soviet time, as I said, it was 11 
dissidents with a typewriter; you remember, smuggling around 
carbon copies of manuscripts and what have you. Now some 400 or 
500 million people are on the Internet, and the struggle over 
the Internet is going to be very critical.
     We can practically help not only by helping to get 
information in, but by helping people inside break through the 
restrictions that the government is putting on the Internet. 
It's terribly important to keep the Internet as open as 
possible for the people in China. That's a very powerful 
factor, and I think it contributes to the instability of the 
situation.
    Ms. Li. I would add by saying that China is in a place 
where the Soviet Union has never been. This brings not much 
certainty about when something would happen, but it also 
challenges us to think more creatively. I also want to add that 
nobody predicted what would happen in the Arab Spring: in 
Tunisia and Egypt.
    I want to get back to the question of, what the U.S. 
Government or this administration could do in the short term. I 
think the administration or the U.S. Government should be 
consistent, at least, when it comes to human rights, whether 
violations took place in Libya or Syria, Iran or Burma, or 
China. There shouldn't be double standards because of China's 
economic power status.
    The upcoming visit by the Vice President of China to the 
United States would be one advocacy opportunity to press for 
the release of Liu Xiaobo and Chen Guangcheng, and Gao 
Zhisheng, and all other political prisoners, because the Vice 
President, as we know, is the heir apparent to the throne of 
the CCP [Chinese Communist Party]. It's important to put him on 
the spot.
    President Obama himself, a Nobel Peace Prize laureate, 
certainly should do more to obtain the immediate and 
unconditional release of his fellow Nobel Peace Prize laureate, 
Liu Xiaobo. The Burmese opposition leader Aung San Suu Kyi was 
under house arrest for almost 20 years. We hope with all our 
efforts and the admirable efforts by this Commission, we would 
see Liu Xiaobo free sooner.
    Mr. Link. I want to answer Congressman Wolf's question 
about ``where is China now? '' by reinforcing what Mr. Gershman 
said about the Internet. Five years ago, my view of the rising 
Chinese Internet was that it was an open question whether or 
not this could be the first medium in the history of Communist 
China that breaks free.
    Now, I really think that the Internet is going to win. I 
don't think they can keep the lid on. The consequences of that 
are something that the regime clearly fears, and I think it's 
an open question, but it makes me, today, much more optimistic 
about change in China than I was three or four years ago.
    There are two of Liu Xiaobo's essays that say that the 
Internet, in his view, is ``God's gift to China.'' It's partly 
tongue-in-cheek, but very serious at another level.
    I found the sentence that I was looking for and I'd like to 
read it because I think it's a good coda for this whole effort 
that you people are making.
    He writes, ``I should emphasize that for people like me who 
live inside a cowardly dictatorship, which is a prison of its 
own kind, every little bit of good-hearted encouragement that 
springs from the human nature of people who live in other 
places, even if the encouragement is small, causes us to feel 
gratitude and awe.''
    Representative Wolf. Well, you know, Sharansky used to say, 
when he knew that people in the West--Congressmen, Senators, or 
people who were just advocating for him--he was inspired by 
that, and even in the Gulag knew that it was taking place. I'm 
going to ask you for one thing, but before that I have one last 
question that I want to ask on this. Does Liu know of this 
interest? Are there ways that he knows that this hearing--will 
he find out that this hearing took place? Do you believe that 
he and his wife know of the interest in the West? Just yes or 
no.
    Ms. Li. In some ways, the general efforts to seek the 
release of Liu Xiaobo or support prisoners of conscience like 
him by the international community is known among Chinese 
activists. Whether this particular hearing, when the 
information will reach them, I cannot answer that question.
    Representative Wolf. Okay.
    Ms. Li. My understanding is the house arrest of his wife, 
Liu Xia, has been done in such a way that if she would not go 
out of her way to try to talk about her situation, she would be 
given a certain chance, for example, for a prison visit. We 
cannot confirm any prison visits by her had actually taken 
place, but there have been some reports to that effect.
    Representative Wolf. So would it be helpful if Members of 
Congress, when they went to Beijing, tried to visit Liu's wife 
who is under house arrest?
    Ms. Li. As Marian just said, I also heard the same, that 
diplomats have been trying to visit her at her compound. The 
first barrier they face are the security guards at the 
compound.
    Representative Wolf. I understand that. But would it be 
helpful if, when Members were there--if we wrote Members of 
Congress who are always going to China and said, when you're in 
Beijing, go and try to visit Liu's wife. You know, try.
    Ms. Li. Yes. Yes.
    Representative Wolf. You may not get there, but try. Ask.
    Ms. Li. Yes.
    Representative Wolf. Don't listen to the American Embassy 
telling you not to do it. But try. Would it be helpful if they 
tried?
    Ms. Li. Yes.
    Representative Wolf. Okay. That's----
    Ms. Li. The more such attempts to visit as we know in the 
case of Chen Guangcheng under house arrest in his village, the 
more attention that such attempts can draw to the individuals, 
the better.
    Representative Wolf. So we'll do a letter to every Member 
of Congress saying, when you go to Beijing, try--try--and if 
Member after Member tries and tries, you know, someone will get 
through.
    The last question is, if you could give Mr. Smith a letter 
with some recommendations that we can get to Ambassador Locke. 
When he was nominated--I opposed his nomination. He came up to 
me after testifying before my subcommittee and said, ``You 
know, when I go to China''--and I think Ambassador Locke is a 
good man. Let the record show he said, ``I'm not going to let 
you down.''
    So if I can say to Ambassador Locke, we had four 
distinguished witnesses before this Commission and they 
recommended that you, Mr. Ambassador, do X, Y, and Z, that 
would be helpful. So if you all could just draft something to 
Mr. Smith and then we will get it to the Ambassador to say we 
had the four of you here, and they thought that if you do this, 
because he's getting very good coverage--good coverage and bad 
coverage, showing him with his backpack and buying ice cream, 
and they're sort of confused by him. If we give him this 
opportunity and we set a standard, then I think we can give 
these to the Ambassador to say these four distinguished 
witnesses before this Commission recommended this, and I 
respectfully request that you do these things. Thank you very 
much.
    Mr. Smith, thank you for the hearing. It's a great hearing.
    Representative Smith. Li Xiaorong, you mentioned a double 
standard. Would the other three witnesses agree that there has 
been a double standard of the United States toward China, 
especially as it relates to places like Libya, as you pointed 
out, Iran?
    Mr. Gershman. You know, I think it's more than a double 
standard. The Arab Spring has so fixated American consciousness 
on the Middle East that people are just not looking anywhere 
else right now, at least not sufficiently. That's why I think 
this hearing is so really incredibly important.
    Congressman Wolf, you know, when you asked, ``Does Liu 
know, will he know? '' My answer is, ``They knew in the Gulag 
in the old days.'' If they could know in the Gulag, at a time 
when half the population is connected to the Internet in China, 
it's inconceivable to me that Liu doesn't know. I would only 
say, in terms of what can be done, Saturday is the anniversary 
of the Prize.
    Representative Smith. That's why we're having the hearing.
    Mr. Gershman. It would be wonderful, even if Ambassador 
Locke just issued a statement in China, just a simple 
statement, congratulating Liu Xiaobo on the anniversary of the 
award and expressing concern about his freedom. I think that 
would be extraordinary, if that could be done on Saturday.
    Ms. Li. Such gestures do make rounds in China among friends 
and the general population. I would mention the former 
Ambassador, John Huntsman, who appeared in Wangfujing on the 
day of the ``Jasmine Revolution'' protest in Beijing, and all 
such gestures do get noticed.
    Representative Smith. Dr. Link?
    Mr. Link. I agree that there has been a double standard. I 
like Mr. Gershman's suggestion immensely of, on the 
anniversary, our Ambassador making a statement. In general, 
again, if I wasn't clear before, I am in favor of public 
statements. It's a mistake to say behind closed doors we're 
going to say this privately and expect that it's going to do 
anything.
    Representative Smith. So why not President Obama in 
addition to our Ambassador?
    Mr. Link. Of course. Of course. That would be even better.
    Mr. Gershman. Yes, especially because of the Nobel 
connection.
    Mr. Link. Yes.
    Ms. Botsford Fraser. I think all Western democracies have 
suffered from the curse of the double standard in terms of 
China and also in terms of other emerging democracies as well. 
I think it's our job to make sure that they're called to 
account for that double standard. It's not fair, and I think 
the standard that should be applied is, what are the needs and 
wishes of the people of China, not the government of China, and 
that should be the standard by which we measure our actions and 
our statements.
    Representative Smith. Thank you.
    Let me thank our witnesses. Anything you want to add before 
we go to the second panel?
    [No response].
    Representative Smith. Thank you so much for your 
leadership. Please be sure to sign the picture, because we will 
give it to him when he is free.
    I'd like to now move to panel number two, beginning with 
Chai Ling, founder of All Girls Allowed. She is the founder of 
that organization, an NGO focused on raising awareness of human 
rights issues in China, especially as it relates to coercive 
population control, forced abortion, forced sterilization, 
gendercide, and the missing girls who have simply been 
eliminated, exterminated, because they happen to be female.
    Chai was a student leader in the 1989 Tiananmen Square 
movement. She was on the government's 21 Most Wanted Students 
list. She escaped from China in 1990 and became a successful 
businesswoman. She has been previously nominated on two 
occasions for the Nobel Peace Prize and she just completed and 
published her memoir, ``A Heart for Freedom,'' just a few 
months ago.
    We'll then hear from Harry Wu, executive director of the 
Laogai Research Foundation. It's a foundation established in 
1992 to gather information on, and raise public awareness of, 
the Chinese laogai system. Harry Wu spent almost 20 years in 
the infamous Gulag system known as the laogai in China, and 
years ago--almost 20 years ago I held the first hearing ever on 
survivors of the laogai. We had six individuals: Catherine Ho, 
Paul Dingiatsu, of course the great Harry Wu, and they told us 
what actually went on in those concentration camps.
    One of those who testified, Paul Dingiatsu, a Buddhist 
monk, brought some of the implements of torture routinely 
employed against people in the laogai and the security 
downstairs wouldn't even let him in the building. We had to go 
and escort him. When he held up the cattle prod and said this 
is what the Chinese Secret Police use against people in the 
laogai, you would have heard a pin drop in this hearing room. 
So Harry, thank you for your tremendous work.
    Reggie Littlejohn, president of Women's Rights Without 
Frontiers. Reggie is a lawyer and president of the Women's 
Rights Without Frontiers, a nonpartisan international coalition 
opposed to coercive population control and sex slavery in 
China, as well as an expert on China's one-child-per-couple 
policy, and she has been arguing very passionately for Chen 
Guangcheng's release and will speak to that, and other issues 
during her testimony.
    And then fourth, Bob Fu, founder and president of ChinaAid 
Association. He was a leader in the 1989 student democracy 
movement, again, in Tiananmen Square, along with Chai Ling. He 
later became a house church pastor and founder, along with his 
wife. After being persecuted for their work, after being 
incarcerated for their work, they escaped to the United States 
and in 2002 founded ChinaAid and monitors and reports on 
religious freedom in the People's Republic of China.
    I know she has to leave, but Sophie Richardson from Human 
Rights Watch, I want to thank her for her leadership. She will 
be submitting testimony for today and was in Oslo, as so many 
of us, during that very uplifting but heartbreaking ceremony 
when we all witnessed the empty chair.
    [The prepared statement of Ms. Richardson appears in the 
appendix.]
    Representative Smith. Ms. Chai?

       STATEMENT OF CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai. Well, Chairman Smith and Ranking Members of the 
Commission, thank you for hosting this important hearing to 
give honor, respect, and much-needed attention to Mr. Liu 
Xiaobo. His bravery and perseverance continue to set an example 
for all of us when we consider our Nation's relationship with 
China.
    My experience with Liu Xiaobo began at Tiananmen Square in 
1989. From the beginning, we approached the movement with 
different strategies and ideas toward a common goal to request 
dialogue with the Chinese Government to urge peaceful reforms. 
However, on the night of the massacre we reached very powerful 
unity. After that, I went through 10 months in hiding until I 
was able to reach America. Unfortunately, Liu Xiaobo was sent 
to prison in China, where he still is today.
    Charter 08 and China's three reforms are necessary for 
China's democracy and freedom. During the 1989 movement, the 
leader Hu Yaobong--who led the movement--died. He had advocated 
for three reforms, economic, political, and spiritual reform.
    Zhao Ziyang, the premier, who was eventually sentenced to 
house imprisonment for his disagreement with Deng Xiaoping, 
advocated for two reforms, political and economic. But Deng 
Xiaoping only wanted one, economic reform, and that's what 
China has today. So Charter 08 is the effort of advocating for 
political reform in China.
    Today, of the 303 initial signers who signed the first 
round of Charter 08, 156 of them have suffered severe 
persecution, such as prison sentences, arrest, house arrest, 
and forced disappearances on sensitive dates such as the Nobel 
Peace Prize award ceremony. It is really important and 
necessary to also remember them as well.
    Charter 08 advocated for many rights, including freedom of 
speech, freedom of religion, and property rights for average 
Chinese people. Today, China has used its corruption and power 
and authority and has taken many average, helpless people's 
properties, millions of those.
    We recently were informed of a case of this lady, her name 
is Nie Lina. I wanted to point out her situation because it's 
urgent, and she was detained in April due to her petition for a 
loss of housing. The government punished her by sentencing her 
to a forced abortion, and here we see the picture of her being 
strapped down, going through detainment. So we sent out an 
urgent prayer request, and 48 hours later that prayer was 
answered and she was set free. So five months later she was 
able to give birth to her baby.
    Unfortunately, this saga continues. This brave woman, a new 
mother, returned to petition again, and she was imprisoned 
again. Yesterday morning our staff and partner, Zhang Jing, got 
an urgent call from her. She and her three-month-old infant and 
her 70-year-old mother are being detained in a black jail 
somewhere in Beijing.
    For more than 10 days, she was given very little nutrition, 
so she didn't have enough milk to feed her baby. So we do want 
to use this opportunity to advocate for her immediate release, 
her, her baby, and her mother.
    So this is just one of many cases. We cannot fight in every 
single case, but we can advocate for freedom and justice by a 
much more broad approach, looking at U.S.-China policy. When we 
talked last year, when five Nobel Peace Prize committee members 
were able to take a stand, through their enormous courage to 
take on the whole of China, it inspired the rest of the world.
    It was awesome to see, Chairman Smith, you and Nancy 
Pelosi, then-House Speaker, Mr. Gershman, Professor Perry Link, 
all there. It was a beautiful reunion. However, the lack of the 
presence of President Obama was heartbreaking for many of us, 
and this symbolizes a consistent problem between U.S.-China 
policy. It's a lack of leadership, lack of conviction, lack of 
moral authority.
    Particularly, a statement like that, such that we cannot 
let human rights interfere with our economic crisis and 
security issues in dealing with China, that has become the root 
cause for the deterioration of China's human rights conditions 
and the decline of America.
    Two years ago, I was invited to know Jesus Christ, so today 
I can no longer talk about China's situation without mentioning 
God. So that is also the reality in China, that a third of the 
Chinese Tiananmen generation has come to know Jesus, and has 
been given renewed courage and determination to fight for 
freedom and democracy for China.
    I do want to come to Scripture to see what should be the 
basis of the U.S.-China relationship. The God who founded 
America through the forefathers is clearly a God who loves 
justice, hates robbery, and iniquity. He's a God who gave the 
following decree: Curse the man who withholds justice from the 
aliens, the fatherless, and the widow.
    So when we uphold justice to do what God requires us to do, 
to act justly, love mercy, and walk humbly with the Lord our 
God, there are severe consequences, as the Bible clearly lists. 
You will be cursed in the city and cursed in the country.
    As we know today, America is paying 42 cents of interest on 
every dollar we spent as a government. The following picture 
serves as a chilling reminder to start doing right. It is said, 
``A people that you do not know will eat what your land and 
labor produce. You will have nothing but cruel oppression all 
your days. The sights you see will drive you mad.'' It 
continues, ``He shall lend to you, but you shall not lend to 
him. He shall be the head and you shall be the tail.'' In many 
ways this reminds us of the current economic and debt situation 
we have in China.
    I know my time is running out. I would like to be able to 
finish the rest of the story later in the question and answer 
time. I would like to request that all the information we 
provide, including the many names of the Chinese people who are 
in detention, our report on the one-child policy, and our urge 
to have H.R. 2121 to be passed, all that information to be 
included in this hearing record.
    Representative Smith. Without objection, so ordered. And 
you also have the names of the people with Ms. Nie Lina?
    Ms. Chai. Nie Lina. Yes. I forgot to mention that. Yes. 
Appendix 1 is the names of the officials who are responsible 
for Nie Lina's detention.
    Representative Smith. I appreciate that. It's amazing that 
you have that list.
    Ms. Chai. Yes. We'd like to include them in the record and 
ask Ambassador Locke to bar them and their family members from 
entering this country. That would send a very strong message.
    Representative Smith. I appreciate that. Thank you.
    Ms. Chai. Yes. Thank you.
    Representative Smith. Thank you, Chai Ling.
    Harry Wu?
    [The prepared statement of Ms. Chai appears in the 
appendix.]

STATEMENT OF HARRY WU, EXECUTIVE DIRECTOR, THE LAOGAI RESEARCH 
                  FOUNDATION AND LAOGAI MUSEUM

    Mr. Wu. I wish my testimony could become part of the record 
of this hearing.
    Additionally, I want to make four points. The first point 
is, it has been one year since Liu Xiaobo was awarded the Nobel 
Peace Prize, and now he's still in the jail. In 1960, I, too, 
was put into the Chinese laogai camps because of my ideas. I 
was there 19 years. But 50 years later, the Chinese regime has 
not changed how it handles dissidents' opinions.
    Liu Xiaobo has sent over 260 articles to our Web site, 
Observe China. We published it. But Liu Xiaobo's articles did 
not get published inside China. But the Chinese Government 
picked three of these articles in the verdict--the three 
articles are: No. 1, ``Can It Be That the Chinese People 
Deserve Only Party-led Democracy? ''; No. 2, ``The Many Aspects 
of CPC's Dictatorship''; and No. 3, ``Changing the Regime by 
Changing the Society.'' This is the so-called crime, ``intent 
to subvert the government.'' Unfortunately, inside, the people 
cannot read these articles, but they try to.
    Point number two: last year I was in Oslo. I was surprised 
to see a message from John Chambers, the CEO of the Cisco 
Systems. He noted that Cisco has been a sponsor of the Nobel 
Peace Prize Concert since 1999, and that ``Cisco is working to 
help individuals, companies, and countries to use the Internet 
to collaborate, educate, empower, and further the ideas and 
innovation inspired by Alfred Nobel and his legacy.''
    But we do know, in the last decade, Cisco cooperated with 
Chinese security systems very well. They signed a number of 
contracts with the security systems to upgrade their military, 
upgrade their Internet systems. So today, the Chinese Internet 
system very well protects their market. It's called the Golden 
Shield Project.
    Number three: We published two Chinese-language Liu Xiaobo 
books. Unfortunately, today there's only two Chinese versions, 
but we will soon publish an English version and it's only 
written by Liu Xiaobo. We sold about 2,000 copies of these 
Chinese versions. We collected more than US$16,000. But we 
cannot send the money back to Liu Xiaobo. Even from 2006 until 
today, every month we financially supported Liu Xiaobo. But in 
February 2011, we had to stop because Liu Xia, his wife, also 
disappeared.
    But I have a photo here. This is the so-called Jinzhou 
Prison. But, so far as I know, Liu Xiaobo was not in this 
prison. Just as you know, in 1995 when the Chinese Government 
arrested me, they put me in a retirement center. When the 
American consulate came to visit me, interview me, they removed 
me to the Wuhan No. 1 Detention Center. Supposedly, Liu Xiaobo 
is in the Jinzhou Prison, this is not the truth. He is in a 
secret location.
    The last issue, I want to remind you, we should not talk 
about ``political reform'' because this is telling the Chinese 
Communist Party that he is not forgotten, that his vision of a 
better future will not be quietly fading away. Is there any 
Communist Party today--since 1917 until today, is there any of 
them that can be reformed? No. Not any Communist Party can be 
reformed.
    You remember the Polish leaders, the East German leaders 
talking about reform. But since Deng Xiaoping talked about 
political reform, what's going on? I was there in the prison 
camp 50 years ago, and Liu Xiaobo is there again. I want to 
remind the people here, today at this hearing, some people said 
the Internet will be open as soon as possible. And some people 
say the Internet is going to win.
    Let me remind you of a story. Thirty years earlier in 1980, 
I was in China. I heard an American entrepreneur. He said, we 
want to help China--only help the Chinese produce the color TV 
for each family to have a color TV. I thought this was 
wonderful because at the time only a few families had black-
and-white, small TVs--televisions. If everybody had a color TV, 
that means the communication, the media will be free. But today 
you know the Chinese, almost every family has a color TV, but 
the media is entirely controlled by the Communists.
    Today China has more than 300 million Internet users, but 
Liu Xiaobo's articles only can be published outside. If the 
inside people want to see it, you have to cross over the 
firewall. Don't expect that the Internet can be free while the 
Chinese Communists are still over there. Thank you.
    Representative Smith. Thank you very much, Mr. Wu.
    I would just note at this point that tomorrow I will be 
introducing the Global Online Freedom Act and its new, 
enhanced, beefed-up version of a bill that I had introduced a 
couple of years ago. It will require disclosure to the 
Securities and Exchange Commission of all U.S.-listed 
corporations, and that would include Chinese corporations like 
Baidu and others.
    Light is a great disinfectant. Hopefully that will shine a 
bright light on what they are doing, or not doing. Second, it 
also has a regimen of export controls, a modest attempt to try 
to open up the Internet and similar technologies in China.
    Thank you, Mr. Wu.
    Ms. Littlejohn?

   STATEMENT OF REGGIE LITTLEJOHN, PRESIDENT, WOMEN'S RIGHTS 
                       WITHOUT FRONTIERS

    Ms. Littlejohn. Thank you, Mr. Chairman and members of the 
Commission. It is a humbling opportunity to testify on behalf 
of one of the most courageous individuals not only in China, 
but in the entire world, the blind self-taught lawyer, Chen 
Guangcheng.
    I begin by commending the Chairman, Congressman Christopher 
Smith, for your recent attempt to visit Chen Guangcheng and 
your tireless efforts to raise the visibility of his case and 
other cases. Your efforts are having an impact.
    Chen Guangcheng had helped farmers and the disabled, but he 
was arrested in 2006 for helping to expose the Chinese 
Communist Government's massive and systematic use of forced 
abortion and involuntary sterilization to enforce its one-child 
policy in Linyi City, as opposed to Linyi county, in 2005.
    Time Magazine named him one of 2006's Top 100 People Who 
Shape Our World, and he was given the 2007 Magsaysay Award 
known as Asia's Nobel Prize.
    Simultaneous with this testimony I'm submitting a report 
from Chen Guangcheng's 2005 investigation team. This team was 
investigating coercive family planning in Linyi in 2005, and 
this report, which contains extensive witness statements from 
various people who have experienced untold atrocities, was 
drafted by, himself a celebrated lawyer, Teng Biao.
    So this report basically contains like a slice of life, a 
snapshot of Chen's investigative team and the kinds of 
atrocities they were finding right prior to his imprisonment. 
In this report are detailed accounts of the following: A woman 
forcibly aborted and sterilized at seven months following the 
detention of 22 of her relatives; villagers sleeping in fields 
to evade family planning officials; a family planning official 
who broke three brooms over the head of an elderly man because 
his daughter was not home when they came to grab her for forced 
sterilization; family planning officials who forced a 
grandmother and her brother to beat each other; the use of 
quota systems and the practice of implication; the detention, 
fining, and torture of the extended family of so-called one-
child-policy violators; the institution of something that he 
called the Family Planning Learning Class in which extended 
family members are detained and tortured, and then charged a 
fee, which they called tuition; the account of a farmer who 
committed suicide because his family and his neighbors were 
detained and tortured because his son had had an extra child; 
and then there is a report here of the harassment of Chen 
Guangcheng and his team as they were trying to document these 
cases.
    The Chen Guangcheng report makes this clear, that the 
spirit of the Cultural Revolution lives on in China's family 
planning death machine. Women's Rights Without Frontiers has 
chosen to release the names of the perpetrators of these crimes 
against humanity so they may be held accountable before the 
world under H.R. 2121.
    This report was drafted in 2005, however, conditions have 
not improved in Linyi since 2005. Earlier this year, family 
planning officials stabbed a man to death, and a woman six 
months pregnant recently died during a forced abortion in Lijin 
county, also in Shandong Province.
    As the Chairman has indicated, for exposing these 
horrendous crimes against humanity, Chen Guangcheng was jailed, 
tortured, denied medical treatment. For more than four years 
he's now languishing under house arrest. Foreign journalists 
have been forcibly denied access to him and lawyers who try to 
help Chen Guangcheng have been beaten and detained.
    I speak specifically of Jiang Tianyong, who I testified 
with in 2009, and Teng Biao. In February they were both 
detained for more than 60 days. This fall, leading up to Chen 
Guangcheng's 40th birthday, people from all over China streamed 
in to try to see him and try to visit him, and they were, 
without exception, repelled by thugs at the crossroads of his 
village.
    Women's Rights Without Frontiers and the ChinaAid 
Association are spearheading an international effort to free 
Chen Guangcheng. Thus far, we have collected more than 6,400 
signatures from 28 countries on our petition.
    In early October, we received an unconfirmed report that 
villagers had said that Chen Guangcheng had died. This was 
after we had received a video that was released through 
ChinaAid about the horrific conditions of Chen Guangcheng's 
house arrest, and also a letter from his wife, Yuan Weijing, 
saying that she was concerned that he might not survive because 
of his medical condition.
    However, even though the many visitors to Chen Guangcheng's 
village have been repelled, Relativity Media was able to gain 
access to Linyi in order to film the feature film comedy ``21 
and Over.'' When challenged on its choice of Linyi out of the 
thousands of possible locations in China and urged to apologize 
for its lack of sensitivity to Chen Guangcheng and human 
rights, Relatively Media issued a statement defending its 
action. Women's Rights Without Frontiers has called for an 
international boycott of the film ``21 and Over.''
    Just this weekend, a source inside China contacted me and 
gave me a credible report that Chen Guangcheng is alive, and in 
fact that his condition has improved slightly. She attributes 
this, the fact that he's alive and that his condition has 
improved, to the fact that Chen's situation has ``gotten 
exposed and gotten huge public attention,'' in her words.
    So part of that public attention was the stream of 
visitors. Part of it also was an international campaign called 
the Sunglasses Campaign, which was a collaboration between 
Women's Rights Without Frontiers in the West and the Dark 
Glasses Campaign in the East. Other members of this panel have 
talked about how effective political cartoonists are and the 
person in China that is spearheading this campaign is the 
political cartoonist, Crazy Crab.
    You can see the image that he came up with there, which is 
the image of Chen Guangcheng made up of the images of 
supporters who have taken their sunglasses portraits and sent 
them in to our Web sites from China and the United States, 
representing visually the collaboration between China and the 
United States that has been effective in helping Chen 
Guangcheng.
    We would also like to say that it would be very effective 
for Ambassador Locke to attempt to visit Chen Guangcheng. The 
Chinese Communist Party has attempted to silence Chen, but they 
cannot silence the voices of millions in China crying for his 
freedom. The report that Chen Guangcheng is alive and in 
slightly improved condition should not be a reason to relax 
efforts on his behalf. To the contrary, these efforts are 
having an impact and should be intensified. Chen, we will not 
stop until you are free.
    Thank you.
    Representative Smith. Thank you very much, Ms. Littlejohn, 
for your very eloquent and very strong statement and for your 
advocacy that has made a huge difference. Thank you so much.
    Pastor Fu?

  STATEMENT OF PASTOR BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Mr. Fu. Thank you, Mr. Chairman.
    Just one year ago, you and I were sitting at the Oslo City 
Hall, witnessing that historic but sad moment of the empty 
chair. One year later, the empty chair is still there. The fact 
that human rights and the rule of law and religious freedom in 
China have all seriously deteriorated in 2011 is already well-
known to all. So on the one-year anniversary of the awarding of 
Nobel Peace Prize to Liu Xiaobo, it's very highly significant.
    Based on our own incomplete statistics we know that about 
100 lawyers, rights activists, and dissidents have been 
disappeared, tortured, imprisoned, and even sentenced to prison 
terms in the first 11 months of this year. From February to 
July alone, more than 1,000 rights activists and dissidents 
across the country, invited to ``drink tea,'' were being 
threatened.
    Although most of the freedom of religion measures that 
Charter 08 calls for are guaranteed in Article 36 of China's 
own Constitution, but in practice and in reality the 
implementation falls far short.
    Broad discrimination against and persecution of independent 
religious groups and people of faith has been increasing in the 
past 12 months. Just last week we received reports that at 
least 11 Uyghur Muslims in Xinjiang Uyghur Autonomous Region 
were detained, and 4 were placed under criminal detention. What 
crime did they commit? They were accused of so-called engaging 
in illegal religious activities because they were reading the 
Koran in their own homes without permission.
    Since April 10 of this year, numerous members of Beijing's 
Shouwang Church, with over 1,000 members, an independent house 
church, have experienced weekly detention, harassment, and 
abuses for 35 weeks in a row. The entire church leadership has 
been under house arrest without freedom of movement the entire 
time.
    Many believers have lost their jobs and have been evicted 
from their rented apartments. Why? Again, it is because they 
have been accused of engaging in illegal religious activities, 
in their case by worshiping in a public space. Never mind that 
they were forced to worship in an outdoor public arena because 
the government forced the church out of its rental worship 
place and made it impossible for it to move into its own 
purchase of the facility.
    In 1989, I was also participating with the students' 
movement with the ideal that we want to reform the Communist 
Party by urging the system to change and reform. Of course, it 
ended with a massacre. I was very disappointed later on during 
the interrogation time. Even some of my fellow comrades 
betrayed me by telling lies in order to show their loyalty to 
the Communist Party.
    So I went from disappointment to disillusioned, and I was 
thinking in despair to commit a suicide bomb campaign. I wanted 
to kill my enemies and end my own life. But it was at that time 
that I found my faith in Jesus Christ, and later on became a 
member of the house church and engaged in the religious freedom 
defense movement.
    Of course, ever since the fall of Communism in the former 
Soviet Union and Eastern Europe, the Chinese Communist Party 
has acted as though mafia groups could be tolerated, but not 
independent religious believers. The treatment of house church 
Christians, Falun Gong practitioners, Uyghur Muslims, and 
Tibetan Buddhists has been far worse than other so-called 
unstable social elements. Torture and brainwashing with drugs 
has been used to achieve what the authorities called 
transforming the mind-set of these believers.
    In terms of recommendations, I want to----
    Representative Smith. Mr. Fu, if you could just suspend for 
one second.
    Mr. Fu. Yes.
    Representative Smith. I would ask you to complete your 
statement. I would ask if our distinguished witnesses would 
mind waiting for about 15 minutes or less. There's three votes 
on the floor and there's about a minute and a half left on the 
first.
    Mr. Fu. Yes. Yes.
    Representative Smith. Then we'll reconvene. But we'll take 
a brief respite and then come back.
    Mr. Fu. Thank you.
    Representative Smith. So if you could just hold that, then 
we'll come back to it.
    Mr. Fu. Sure.
    [Whereupon, at 3:54 p.m. the hearing was recessed.]


                        after recess [4:28 p.m.]


    Representative Smith. The Commission will resume its 
sitting. I'd like to return to Pastor Bob Fu to complete his 
statement.
    Mr. Fu. Thank you, Mr. Chairman.
    In terms of recommendations, I want to point to two things. 
First, I think the U.S. Government should make a very 
consistent, coherent human rights policy and all the--you know, 
from the top down, and every delegation, from trade to 
intellectual property, to other delegations to China to have a 
human rights agenda.
    Second, I think Congress, like, Mr. Chairman, you have 
campaigned for the Vietnamese, you know, the Human Rights Law 
Act, to have the State Department and the administration to 
report to Congress about the improvement or the procedures the 
administration has taken on the human rights record in Vietnam. 
I think the same standards should apply to China, too.
    By doing so, I think with a consistent and coherent foreign 
policy on human rights, I think it will produce results. 
Remember, just a few weeks ago on November 3, Feng Xia, the 
wife of one of China's most prominent Internet freedom 
democracists, Mr. Ding Mao, was sitting right behind me. She 
quit her job and came here just to explain her husband's 
innocence and tried to explain to the international community 
and asked for help.
    It was this Committee, including, Mr. Chairman, yourself, 
that has taken action immediately. The chairwoman took a photo 
with her and Congressman Wolf and Congressman Pitts immediately 
wrote letters and made phone calls on that Friday to the State 
Department, and it resulted, of course, on the Sunday when Ms. 
Feng Xia arrived in her hometown airport in Chengdu the U.S. 
Embassy sent an official and met with her and they had tea 
together, and the next day, on Monday, she was driven to the 
U.S. Consulate compound for a one-hour meeting. Happily, of 
course, as you already know, last Friday her husband was 
released after nearly 10 months in illegal detention.
    Of course, he already served over eight years previously. 
That's a very unusual release of Mr. Ding Mao that is a bright 
spot, I think, that can be used as a good example, that 
persistent diplomacy still works, even in the face of the 
largest stronghold, the last stronghold of the Communist 
country, China.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Fu appears in the appendix.]
    Representative Smith. Thank you very much, Mr. Fu. Thank 
you for that update, encouraging in what is otherwise a very 
discouraging set of events that are occurring in China.
    Let me just ask a couple of questions. First, starting with 
the issue that I raised with the previous panel about double 
standard, just so that the record is clear from this panel 
whether or not you think the United States, our European 
allies, other democracies around the world have, for reasons 
that might be economic or otherwise engaged in a double 
standard when it comes to China.
    It seems to me that in countries like Burma, where there 
are not huge economic interests, it's always that much easier 
for the United States to be very aggressively promoting the 
human rights agenda. Is there a double standard?
    Harry Wu?
    Mr. Wu. Well, I was complained to by Cuban dissidents 
because the Cubans--even their country's president Fidel 
Castro--cannot obtain an American visa. But with the Chinese 
president, it's not only the visa, but he can become the White 
House's honored guest. So this is a double standard. China's 
the only country, with the so-called publish and control, to 
only allow one child for each family.
    It doesn't happen in Cuba, it didn't happen in Vietnam. But 
did we really condemn this national policy? No. Okay. Roman 
Catholicism, until today, is illegal inside China--but it is a 
kind of freedom in Cuba. But what did we do? We did nothing, 
okay? And China executed many people, and organ transplants--
this is very unique. It only happens in China. But I suppose 
because China is a very large country, so we just forget about 
it. Let's talk about the market, talk about economy, the labor 
force. It's not really talking about human rights at all.
    Ms. Littlejohn. If I might respond, Mr. Chairman. I think 
that the double standard that is applied between China and the 
United States was very evidence in Vice President Biden's 
statement that he made when he was in China, that he fully 
understands, but does not second guess, China's one-child 
policy.
    So in other words, he fully understands that China's one-
child policy is enforced through forced abortion, forced 
sterilization, and infanticide. He fully understands that girls 
are selectively aborted. He fully understands that this 
gendercide has caused a situation where there are 37 million 
more men than women in China today.
    He fully understands that this gender disparity is driving 
human trafficking in sexual slavery in China. He fully 
understands that the oppression of women, because of the one-
child policy, is a factor in the fact that China has the 
highest female suicide rate of any country in the world, and 
yet he's not second-guessing it.
    What does that mean? If it's not okay in the United States 
it's not okay in China either, and I just think that, again, 
that statement really undermined the moral credibility of the 
United States on the world international scene.
    Mr. Fu. Yes, Mr. Chairman. There's definitely a double 
standard over there. As a former prisoner born and educated in 
China, I wish, when President Obama made his speeches during 
the Jasmine Revolution time, during the crisis with Libya, 
these names of Libya and Tunisia could be replaced with China 
and look at the standards.
    I mean, the horrifying--you know, from gendercide to the 
torturing and the forced disappearance of prisoners. I think it 
all makes sense, I mean, that there is a double standard and 
that's why we advocate for a coherent, consistent, and 
persistent foreign policy on human rights.
    Ms. Chai. Yes, I do want to agree with all the three 
witnesses, that the U.S.-China relationship definitely has a 
double standard, double moral standards. I would like to focus 
to help the American Government establish its singular standard 
by seeking justice as a foundation of its foreign policy. 
Recently we visited Rome, and in preparation to visit Rome we 
studied Pope Benedict XVI's letter on September 22, 2011, to 
Germany's Lower House of Parliament and I found that message 
really enlightening and would like to share if that's okay.
    He said, ``Allow me to begin my reflections on the 
foundation for law with a brief story from the sacred 
Scripture. In the first book of the Kings it is recounted that 
God invited the young King Solomon, on his accession to the 
throne to make a request. What would a young ruler ask for at 
this important moment? Success? Wealth? Long life? Destruction 
of his enemies? He chooses none of these things. Instead, he 
asks for a listening heart so that he may govern God's people 
and discern between good and evil.'' This is 1 Kings 3:9.
    ``Through this story the Bible wants to tell us what should 
ultimately matter for a politician.'' I would really like 
President Obama to listen to this and the future presidents or 
the leaders in the U.S. Congress as well.
    ``His fundamental criterion and the motivation for his work 
as a politician must not be success, and certainly not material 
gain''--which is 100 percent opposite from what our Nation has 
been doing in the past 22 years.
    ``Politics must be a striving for justice, and hence it has 
to establish the fundamental preconditions for peace. 
Naturally, a politician will seek success, without which he 
would have no opportunity for effective political action at 
all. Yet, success is subordinated to the criteria of justice, 
to the will to do what is right, and to the understanding of 
what is right. Success can also be seductive and thus can open 
up the path towards falsification of what is right towards the 
destruction of justice.''
    `` `Without justice, what else is the state but a great 
band of robbers? ' as St. Augustine once said.'' Our America is 
very much like a band of robbers in U.S.-China policy. We 
should check the record, we should check the history and we 
should figure out what is the right thing to do and move 
forward.
    I want to go back to the Pope's words again: ``We Germans 
know from our own experience that these words are no empty 
specter. We have seen how power became divorced from right, how 
power opposed right and crushed it, so that the state became an 
instrument for destroying right--a highly organized band of 
robbers, capable of threatening the whole world and driving it 
to the edge of the abyss. To serve right and to fight against 
the dominion of wrong is, and remains, the fundamental task for 
the politician. At a moment in history when man has acquired 
previously inconceivable power, this task takes particular 
urgency.''
    ``Man can destroy the world. He can manipulate himself. He 
can, so to speak, make human beings and he can deny them their 
humanity. How do we recognize what is right? How can we discern 
between good and evil, between what is truly right and what may 
appear right? Even now Solomon's request remains the decisive 
issue facing politicians and politics today.''
    As the Pope pointed out correctly, the foundation of a 
listening heart is to seek justice, not success. Today we need 
to have a listening heart to confront injustice in China. As 
Martin Luther King, Jr. said, ``Injustice anywhere is injustice 
everywhere.'' So that's my recommendation.
    Representative Smith. I appreciate that. Very profound 
words and sentiments.
    Let me ask, with regard to the whole sense of 
accountability, when Liu Xiaobo--when the announcement was made 
that he had won the Nobel Peace Prize we all rejoiced. It was 
like, maybe this is a tipping point moment. Maybe the Chinese 
Government will finally, at long last, realize at least some of 
the errors and some of the egregious behavior that they're 
engaged in.
    Yet, they went precisely in the opposite direction, calling 
the Nobel Peace Prize award obscene, attacking the Norwegian 
Government and all other governments that were in accord with 
this very fine selection, and I am very worried, frankly, that 
there has been, at least in some quarters, silence over the 
last year with regard to Liu Xiaobo.
    I mentioned earlier President Obama's silence, at least 
public silence, when his jailer, Liu Xiaobo's jailer, was right 
here in town and we failed to raise the question of a Nobel 
Peace Prize winner being incarcerated and his wife, de facto, 
being under house arrest. It was an opportunity lost.
    Now, if the lesson learned from the countries, including 
the United States, is to go silent, we will only be, perhaps 
unwittingly, but certainly enabling the dictatorship to be even 
more grievous in its mistreatment of people. I'm wondering what 
you would recommend that we do to be very clear, transparent, 
strong. Wei Jingsheng once said, and I know Harry Wu agrees 
with this, that when we're quiet they beat people more in the 
prison, in the laogai. It seems to me that there has been some 
silence in some quarters.
    Saturday certainly is a day that everyone, every government 
leader including the President and Ambassador Locke, as was 
recommended previously by Carl Gershman, put out a very clear 
statement. We need those statements everywhere so the Chinese 
Government does not take the wrong sense of what is either fear 
or indifference or looking the other way.
    We need to ratchet up, redouble our efforts, as Ms. Li said 
in her testimony earlier. Your views on that? It seems to me we 
have to do much more, because over the last year, other than 
present company excluded, we seem to have done little or 
nothing.
    Ms. Littlejohn?
    Ms. Littlejohn. Well, Mr. Chairman, I would completely 
agree with your statement. I believe that one of the reasons, 
perhaps the primary reason that Chen Guangcheng is alive and 
that they have even improved slightly his condition, is because 
so much attention has been focused on his case, both inside of 
China and outside of China.
    The brave people inside of China who have been visiting 
him, even though they know they're going to be beaten and 
detained, and then the people outside of China, the Sunglasses 
Campaign, your own efforts to go and visit him, have all 
contributed to the fact that he is alive and not dead, and also 
that his situation has improved.
    Now, as I'm sure you know, there was a piece that was 
written in the New York Times recently saying that perhaps we 
should mute ourselves, because if the international community 
puts too much pressure on China then China will not accede 
because they don't want to be seen to be bending to 
international pressure.
    I completely disagree with that, and I think that the 
people on this panel would disagree with that approach, that 
consistently, when pressure is applied, conditions improve. 
When people are quiet, when we try to kowtow to the Chinese 
Communist Party, then they just use that as a license to 
descend farther and farther and farther into atrocities.
    Chen Guangcheng himself urged people to take a stand. In 
the video that was released he said what we need to do is to 
overcome terror and to expose their egregious acts that lack 
any sense of conscience. He, himself, has urged people within 
China and the international community to take a stand against 
the atrocities in China, and I can think of no better approach 
than the one that is espoused by Chen Guangcheng.
    Representative Smith. Thank you.
    Mr. Fu. I think Harry would agree with me on this point, 
but I echo what you said, to speak publicly and loudly and 
repeatedly. I think it is very important. Many times, even 
myself, when I know a cell phone number of the Public Security 
Chief who detained prisoners, house church leaders, I just call 
them and let them know my name, and in several cases by the 
next day they were released.
    I think the Chinese Government, the leaders know that this 
Congress, the administration officials, from the President, the 
Cabinet members, they do care. But raising the names of Liu 
Xiaobo, Liu Xia, on every occasion when they meet with Chinese 
officials, I think that will make a difference.
    Representative Smith. Okay. With regard to accountability, 
I want to thank Chai Ling for--even in the case of Nie Lina--
listing the names of people that need to be held to account. It 
seems to me that 31 years of doing human rights work, even the 
most brutal dictator and dictatorship fears an ultimate 
accounting for the atrocities they've committed. We saw it with 
Milosevic, we saw it with the people in the former Yugoslavia, 
including Karadzic and Maladic, all of whom resisted with every 
fiber of their being, being held to account.
    We saw it with Charles Taylor and Joseph Kony, who was 
still on the loose with the so-called Lord's Resistance Army, 
naming people, ICC [International Criminal Court] indictments, 
and certainly the barest minimum, denying a visa to people who 
have committed atrocities, which H.R. 2121 would do, as you 
pointed out, Ms. Chai, in your statement.
    But I think the more chronicling of perpetrators is 
accomplished by the Chinese themselves and certainly when 
there's a penalty phase, it does sharpen the mind no matter 
where you are, including in a dictatorship. So, Chai, did you 
want to respond to that?
    Ms. Chai. I'd love to add to that, yes. So, thank you so 
much for confirming. We're still going to move forward to push 
for--and advocate for the U.S. Congress to pass H.R. 2121. We 
believe that's a very effective way to influence, deter, and 
change the behaviors of human rights abusers in China.
    Recently, our attention was brought to this man, Li Qun, 
who came to the United States in 2000. He was given a visa to 
study at the University of New Haven. He interned at the 
mayor's office, and went back to Linyi. He is largely 
responsible for Chen Guangcheng's imprisonment and torture, and 
is largely responsible for implementing the 130,000 forced 
abortions and forced sterilizations.
    So that just draws attention to say, one, I absolutely 
agree with Reggie Littlejohn and Bob Fu's statement that we 
need to talk. We need to speak more, rather than be silent, not 
just at the government level, but at all levels.
    Every time we meet with a Chinese official, every time we 
meet with Chinese visitors, we should tell them about the 
values of America, talk to them about forced abortions, forced 
sterilizations, talk about ending gendercide. That would help 
them open their eyes, open their mind, and change their heart.
    Recently we did a little bit of investigation when we 
discovered about Li Qun's appearance in America. Supposedly his 
record in America is short, but really boasts of his record 
being Chinese Government. Now not only is he going to be 
demoted, he was promoted to potentially be a Party leader in 
charge of the entire Shangdong Province, and he's posted his 
resume for his experience in America.
    So we see China is sending loads of these bureaucrats, 
cadres of officials to America, for short-term, six-month 
business administration and training. Again, the business 
administration and training does not talk about human rights, 
morality, values.
    When they go back, they say we learned how to govern our 
country better from America, and by the way, they emphasize, to 
further oppress their people. That's not what America is all 
about and not what it should be all about. Thank you.
    Ms. Littlejohn. Mr. Chairman, I'd like to bring up another 
aspect of accountability, which is not simply the 
accountability of the human rights atrocities and perpetrators 
in China, but also corporate responsibility of people who are 
investing in China. For example, I brought up the example in my 
testimony of Relativity Media.
    Relativity Media is a huge film company. They have many 
films that have won multiple Academy Awards. They really touted 
the fact that they had this big partnership with Chinese 
Communist Party officials in Linyi county to film in Linyi 
county, so that they were filming this comedy about a young man 
who goes wild on his 21st birthday right next to where Chen 
Guangcheng is languishing near death under house arrest.
    I believe that companies need to exercise social 
responsibility and a conscience for human rights and do their 
due diligence in terms of figuring out where they're doing 
business and with whom they are doing business, because it is 
likely that some of the same officials that were forging this 
deal with Relativity Media are also the ones who are signing 
off on the orders to torture Chen Guangcheng. I personally hope 
that the film ``21 and Over'' that they filmed in Linyi is 
going to be a huge commercial failure and would urge people to 
boycott that film.
    Mr. Fu. Just one more point about Internet freedom. I 
completely agree with what Harry just mentioned about the Cisco 
problem, or almost pandemic. I think the Cisco CEO should be 
subpoenaed to come here to testify on what they have been doing 
to nurture the dictatorship.
    I think the State Department should have an all-out 
campaign with the congressional appropriation funding to build 
software to break the so-called Great Firewall. I think that 
will, itself, serve as a real instrumental door for freedom in 
China.
    Representative Smith. The Chair recognizes Anna Brettell, 
who is our senior staffer who helped do a great deal of work on 
this particular hearing, and I want to thank her for that.
    Anna?
    Ms. Brettell. Thank you, Congressman. Thank you all for 
coming here, from quite far distances, some of you.
    I have just one question. I'm curious about the lawyers 
that were affected by the 2011 crackdown. Did their experiences 
affect their work or the way that they approach legal cases? 
Are they still taking human rights cases?
    Mr. Fu. Some of the lawyers that we have been working with 
were totally silenced. They were silenced because of the 
tremendous torture they experienced and with the continuous 
threats they faced, even up to now. So they're not able to take 
up cases or speak up even now. But some are regrouping.
    For instance, with lawyer--attorney Jiang Tianyong, who 
bravely received interviews and spoke up. Because, he said, he 
would go crazy if he did not speak up about the torment he had 
experienced during his 60 days of forced disappearance.
    I still see hope that some other human rights lawyers that 
we have been working with are still actively taking up cases, 
so these are the three different situations for human rights 
lawyers.
    Ms. Chai. Anna, I'd like to add that, regarding your 
question, thank you again for putting this great hearing 
together. I know you worked really hard. I think at one of the 
hearings we shared about Ma Jihong's murder. She was seven 
months pregnant with her second baby. She was forced, dragged 
into a forced abortion clinic, and by 9 o'clock p.m. she was 
gone, together with her seven-month-old baby.
    The human rights attorneys we are working with inside 
China, are able to take this case, to file a lawsuit against 
the abusers. So despite the fact that some human rights lawyers 
are being silenced, many more are moving forward with 
determination and courage to seek justice for the helpless 
people.
    Ms. Littlejohn. I'd like to add that this Arab Spring 
crackdown, I believe, was more or less an excuse or pretext for 
cracking down on lawyers. Many of these lawyers had already 
experienced tremendous oppression and abuse.
    I'll never forget testifying with Jiang Tianyong in 2009 at 
the one-child policy hearing, and then we gathered in, Mr. 
Chairman, your office afterward. And as we were leaving, Jiang 
Tianyong said, ``If anything happens to my wife and my child, 
would you please help me? '' And we all immediately prayed for 
him, but then when he got back to China, in fact, very shortly 
thereafter, he was dragged off right in front of his daughter 
and detained and beaten. We had a press conference for him. 
These people have unbelievable courage.
    As an attorney in the United States, I look at the human 
rights attorneys in China with awe, but also at the Chinese 
Communist Party and the way that they are targeting human 
rights attorneys for torture, for forced disappearance. I 
believe that they are deliberately turning people who were the 
defenders of victims of human rights atrocities into victims 
themselves and trying to disable the entire human rights legal 
community in the nation of China.
    Representative Smith. Thank you very much for that answer.
    Is there anything you would like to add as we close this 
hearing? Do you have any realistic expectation that Liu Xiaobo 
will be free in the near term?
    Ms. Chai. Yes, I do.
    Mr. Fu. We pray for his release.
    Ms. Chai. I would love to. Can we?
    Mr. Fu. Just one more appeal for understanding, since Dr. 
Brettell mentioned about these lawyers. Many were seen as 
silenced in the public square, but just like lawyer Tang 
Jitian, for a lawyer being captured secretly and put in the so-
called Tiger Bench naked, having water poured on them with high 
volume, and electricity, lying for 24 hours in a closed-door 
room for days and weeks--like Dr. Teng Biao, a legal scholar 
and professor of law who was both handcuffed and shackled and 
was chained in a torture chair for a couple of months. For 
getting food he has to do this. Using the toilet room, he has 
to jump. This is not just one day or one week, it's for a few 
months, with a death threat to his own family members.
    So I just want to appeal for understanding. I think for 
those who are not able to speak up so far, I think we have 
experienced so much more than we had previously even thought.
    Representative Smith. Thank you so very much for your 
testimony, for your leadership, which has been extraordinary. 
Chai, did you have something?
    Ms. Chai. Yes, I'd like to.
    Representative Smith. Oh, I'm sorry.
    Ms. Chai. I'd love to. I just want to conclude that in the 
past two years I experienced something very profoundly in 
dealing with China, that when I see suffering and sadness, if I 
start seeing it from God's perspective I see power and glory. 
In the Bible, the Lazarus story, God allowed Lazarus to die and 
then, even though He wept with him and Jesus, he was able to 
bring him from death to life and to bring more glory to God. We 
have such a strong sense that the freedom and democracy for 
China is very near. I cherish this promise during Jesus' Sermon 
on the Mount, saying ``Blessed are the poor in spirit for they 
are the kingdom of God; blessed are those who mourn, for they 
will be comforted; blessed are the meek, for they will inherit 
the Earth; blessed are those who hunger and thirst for 
righteousness, for they will be filled,'' and Liu Xiaobo is one 
of those, ``blessed are the merciful, for they will be shown 
mercy; blessed are those who are pure in heart, for they will 
see God; blessed are the peacemakers, for they will be called 
the sons of God; blessed are those who are persecuted because 
of righteousness, for theirs is the kingdom of Heaven.'' We 
have seen something very new and never used before, and that's 
the power of prayer in dealing with China's human rights 
situation. So I would like to invite anyone who is a believer 
who wants to try that, and you can either raise a hand or just 
be in agreement with me silently as we conclude this hearing in 
a prayer. Would that be okay?
    Dearest Heavenly Father, Lord Jesus, we just thank you for 
this beautiful, amazing time to testify about the suffering in 
China, and also your heart to seek justice and set people free. 
Lord, I thank you for Chris Smith, for his 30 years of faithful 
service to you. He's such an exemplary example and hero and 
inspires all of us. Thank you for the new leadership brought by 
Paul and many other courageous staff from the CECC.
    Lord, we believe in your promise. We, today, proclaim 
according to your Scripture, freedom for Liu Xiaobo and Chen 
Guangcheng, Nie Lina, and the many others who suffer 
imprisonment for pursuing righteousness, for there is no 
imprisonment in the kingdom of Heaven. We proclaim comfort for 
those who mourn under the one-child policy and the gendercide, 
for the end is coming and they will be given the oil of 
gladness instead of the spirit of despair.
    We proclaim mercy and forgiveness for the Chinese leaders 
and oppressors, for if they choose to be merciful then they 
will be shown mercy. We proclaim riches and prosperity for the 
486 million poor in China, for they will be given the 
opportunity to inherit the Earth.
    We proclaim righteousness for America's Government, for if 
they truly hunger and thirst for righteousness, America will be 
blessed as a Nation. It will be filled with everlasting joy. 
Please join me and let this year be proclaimed to be the year 
of the Lord's favor. In Jesus' name we pray, amen.
    Representative Smith. Amen.
    Ms. Chai. Thank you so much.
    Representative Smith. Thank you.
    The hearing is adjourned.
    [Whereupon, at 5:01 p.m. the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements 

                              ----------                              


                    Prepared Statement of Perry Link

                            december 6, 2011
    I am honored to be here and I salute the Commission for its wisdom 
in holding this hearing.
    Liu Xiaobo is one of those unusual people who can look at human 
life from the broadest of perspectives and reason about it from first 
principles. His keen intellect notices things that others also look at, 
but do not see. It seems that hardly any topic in Chinese culture, 
politics, or society evades his interest, and he can write with 
analytic calm about upsetting things. One might expect such calm in a 
recluse--a hermit poet, or a cloistered scholar--but in Liu Xiaobo it 
comes in an activist. Time after time he has gone where he thinks he 
should go, and has done what he thinks he should do, as if havoc, 
danger, and the possibility of prison were simply not part of the 
picture. He seems to move through life taking mental notes on what he 
sees, hears, and reads, as well as on the inward responses that he 
feels.
    Fortunately for us, his readers, he also has a habit of writing 
free from fear. Most Chinese writers today, including many of the best 
ones, write with political caution in the backs of their minds and with 
a shadow hovering over their fingers as they pass across a keyboard. 
How should I couch things? What topics should I not touch? What 
indirection should I use? Liu Xiaobo does none of this. What he thinks, 
you get.
    Liu was awarded the Nobel Peace Prize in 2010. For about two 
decades, the prize committee in Oslo, Norway, had been considering 
Chinese dissidents for the award, and in 2010, after Liu Xiaobo had 
been sentenced to eleven years in prison for ``incitement of 
subversion''--largely because of his advocacy of the human-rights 
manifesto called Charter 08--he had come to emerge as the right choice. 
Authorities in Beijing, furious at the committee's announcement on 
October 8, 2010, did what they could to frustrate celebrations of it. 
Police broke up parties of revelers in several Chinese cities. The 
Chinese Foreign Ministry pressured world diplomats to stay away from 
the Award Ceremony in Oslo on December 10. Dozens of Liu Xiaobo's 
friends in China were barred from leaving the country lest they head 
for Oslo. Liu Xiaobo's wife, Liu Xia, although charged with nothing, 
was held under tight house arrest. Liu himself remained in prison, and 
none of his family members could travel to Oslo to collect the prize. 
At the Award Ceremony, the prize medal, resting inside a small box, and 
the prize certificate, in a folder that bore the initials ``LXB,'' were 
placed on stage on an empty chair. Within hours authorities in Beijing 
banned the phrase ``empty chair'' from the Chinese Internet.
    Liu was the fifth Peace Laureate to fail to appear for the Award 
Ceremony. In 1935, Carl von Ossietzky was held in a Nazi prison; in 
1975, Andrei Sakharov was not allowed to leave the USSR; in 1983, Lech 
Walesa feared he would be barred from reentering Poland if he went to 
Oslo; and in 1991, Aung Sang Suu Kyi was under house arrest in Burma. 
Each of the latter three prize-winners was able to send a family member 
to Oslo. Only Ossietzky and Liu Xiaobo could do not even that.
    Chinese people have always shown special reverence for Nobel 
Prizes, in any field, and this fact has made Liu Xiaobo's Peace Prize 
especially hard for the regime to swallow. Two people born in China 
have won the Nobel Peace Prize--Liu Xiaobo and the Dalai Lama. One is 
in prison and the other in permanent exile. When China's rulers put on 
a mask of imperturbability as they denounce these Nobel prizes, they 
not only seek to deceive the world but, at a deeper level, are lying to 
themselves. When they try to counter Liu Xiaobo's Nobel by inventing a 
Confucius Peace Prize, and then give it to Vladimir Putin citing his 
``iron fist'' in Chechnya, there is a sense in which we should not 
blame them for the clownish effect, because it springs from an inner 
panic that they themselves cannot control. Liu Xiaobo sits in prison, 
in physical hardship. But in his moral core, there can be no doubt that 
he has more peace than the men who persecute him.
    Liu was born December 28, 1955, in the city of Changchun in 
northeastern China. He was eleven years old when Mao Zedong closed his 
school--along with nearly every other school in China--so that 
youngsters could go into society to ``oppose revisionism,'' ``sweep 
away freaks and monsters,'' and in other ways join in Mao's Great 
Proletarian Cultural Revolution. Liu and his parents spent 1969 to 1973 
at a ``people's commune'' in Inner Mongolia. In retrospect Liu believes 
that these years of upset, although a disaster for China as a whole, 
had certain unintended benefits for him personally. His years of lost 
schooling ``allowed me freedom,'' he recalls, from the mind-closing 
processes of Maoist education; they gave him time to read books, both 
approved and unapproved. Moreover, the pervasive cynicism and chaos in 
the society around him taught him perhaps the most important lesson of 
all: that he would have to think for himself. Where else, after all, 
could he turn? In this general experience Liu resembles several others 
of the most powerfully independent Chinese writers of his generation. 
Hu Ping, Su Xiaokang, Zheng Yi, Bei Dao, Zhong Acheng, Jiang Qisheng, 
and many others survived the Cultural Revolution by learning to rely on 
their own minds, and for some this led to a questioning of the 
political system as a whole. Mao had preached that ``rebellion is 
justified,'' but this is hardly the way he thought it should happen.
    Chinese universities began to reopen after Mao died in 1976, and in 
1977 Liu Xiaobo went to Jilin University, in his home province, where 
he earned a B.A. in Chinese literature in 1982. From there he went to 
Beijing, to Beijing Normal University, where he continued to study 
Chinese literature, receiving an M.A. in 1984 and a Ph.D. in 1988. His 
Ph.D. dissertation, entitled ``Aesthetics and Human Freedom,'' was a 
plea for liberation of the human spirit; it drew wide acclaim from both 
his classmates and the most seasoned scholars at the university. 
Beijing Normal invited him to stay on as a lecturer, and his classes 
were highly popular with students.
    Liu's articles and his presentations at conferences earned him a 
reputation as an iconoclast even before he finished graduate school. 
Known as the ``black horse'' of the late 1980s, seemingly no one 
escaped his acerbic pen: Maoist writers like Hao Ran were no better 
than hired guns, post-Mao literary stars like Wang Meng were but clever 
equivocators, ``roots- seeking'' writers like Han Shaogong and Zheng Yi 
made the mistake of thinking China had roots that were worth seeking, 
and even speak-for-the-people heroes like Liu Binyan were too ready to 
pin hopes on ``liberal-minded'' Communist leaders like Hu Yaobang (the 
Party chair who was sacked in 1987). ``The Chinese love to look up to 
the famous,'' Liu wrote, ``thereby saving themselves the trouble of 
thinking.'' In graduate school Liu read widely in Western thought--
Plato, Kant, Nietzsche, Heidegger, Isaiah Berlin, Friedrich Hayek, and 
others--and began to use these thinkers to criticize Chinese cultural 
patterns. He also came to admire modern paragons of nonviolent 
resistance around the world--Mohandas Gandhi, Martin Luther King Jr., 
Vaclav Havel, and others. Although not formally a Christian, or a 
believer in any religion, he began to think and write about Jesus 
Christ.
    Around the same time, he arrived at a view of the last two 
centuries of Chinese history that saw the shock of Western imperialism 
and technology as bringing ``the greatest changes in thousands of 
years.'' Through the late-nineteenth and early-twentieth centuries, 
China's struggles to respond to this shock cut ever deeper into China's 
core. Reluctantly, Chinese thinking shifted from ``our technology is 
not as good as other people's'' in the 1880s and early 1890s to ``our 
political system is not as good as other people's'' after the defeat by 
Japan in 1895 to ``our culture is not as good as other people's'' in 
the May Fourth movement of the late 1910s. Then, under the pressure of 
war, all of the ferment and struggle ended in a Communist victory in 
1949, and this event, said Liu, ``plunged China into the abyss of 
totalitarianism.'' Recent decades have been more hopeful for China, in 
his view. Unrelenting pressure from below--from farmers, petitioners, 
rights advocates, and, perhaps most important, hundreds of millions of 
Internet users--has obliged the regime, gradually but inexorably, to 
cede ever more space to civil society.
    The late 1980s were a turning point in Liu's life both 
intellectually and emotionally. He visited the University of Oslo in 
1988, where he was surprised that European Sinologists did not speak 
Chinese (they only read it) and was disappointed at how naive 
Westerners were in accepting Chinese government language at face value. 
Then he went to New York, to Columbia University, where he encountered 
``critical theory'' and learned that its dominant strain, at least at 
Columbia, was ``postcolonialism.'' People expected him, as a visitor 
from China, to fit in by representing the ``the subaltern,'' by 
resisting the ``discursive hegemony'' of ``the metropole,'' and so on. 
Liu wondered why people in New York were telling him how it felt to be 
Chinese. Shouldn't it be the other way around? Was ``postcolonialism'' 
itself a kind of intellectual colonialism? Liu wrote in May 1989 that 
``no matter how strenuously Western intellectuals try to negate 
colonial expansionism and the white man's sense of superiority, when 
faced with other nations Westerners cannot help feeling superior. Even 
when criticizing themselves, they become besotted with their own 
courage and sincerity.'' His experience in New York led him to see his 
erstwhile project of using Western values as yardsticks to measure 
China as fundamentally flawed. No system of human thought, he 
concluded, is equal to the challenges that the modern world faces: the 
population explosion, the energy crisis, environmental imbalance, 
nuclear disarmament, and ``the addiction to pleasure and to 
commercialization.'' Nor is there any culture, he wrote, ``that can 
help humanity once and for all to eliminate spiritual suffering or 
transcend personal limits.'' Suddenly he felt intellectually 
vulnerable, despite the fame he had enjoyed in China. He felt as if his 
lifelong project to think for himself would have to begin all over from 
scratch.
    These thoughts came at the very time that the dramatic events of 
the 1989 pro-democracy movement in Beijing and other Chinese cities 
were appearing on the world's television screens. Commenting that 
intellectuals too often ``just talk'' and ``do not do,'' Liu decided in 
late April 1989 to board a plane from New York to Beijing. ``I hope,'' 
he wrote, ``that I'm not the type of person who, standing at the 
doorway to hell, strikes a heroic pose and then starts frowning in 
indecision.'' Back in Beijing, Liu went to Tiananmen Square, talked 
with the demonstrating students, and organized a hunger strike that 
began on June 2, 1989. Less than two days later, when tanks began 
rolling toward the Square and it was clear that people along the way 
were already dying, Liu negotiated with the attacking military to allow 
students a peaceful withdrawal. It is impossible to calculate how many 
lives he may have saved by this compromise, but certainly some, and 
perhaps many.
    After the massacre, Liu took refuge in the foreign diplomatic 
quarter, but later came to blame himself severely for not remaining in 
the streets--as many ``ordinary folk'' did, trying to rescue victims of 
the massacre. Images of the ``souls of the dead'' have haunted him ever 
since. The opening line of Liu's ``Final Statement,'' which he read at 
his criminal trial in December 2009, said, ``June 1989 has been the 
major turning point in my life.'' Liu Xia, who visited him in prison on 
October 10, 2010, two days after the announcement of his Nobel Prize, 
reports that he wept and said, ``This is for those souls of the dead.''
    The regime's judgment of Liu's involvement at Tiananmen was that he 
had been a ``black hand'' behind a ``counterrevolutionary riot.'' He 
was arrested on June 6, 1989, and sent for a bit more than eighteen 
months to Beijing's elite Qincheng Prison, where he was kept in a 
private cell, but not severely mistreated. ``Sometimes I was deathly 
bored,'' he later wrote, ``but that's about it.'' Upon release he was 
fired from his teaching job at Beijing Normal University.
    He resumed a writing career, but now wrote less on literature and 
culture and more on politics. He could not publish in China, but sent 
manuscripts to Hong Kong publications such as The Open Magazine and 
Cheng Ming Monthly, as well as U.S.- based magazines such as Beijing 
Spring and Democratic China. In May 1995 the government arrested him 
again, this time for seven months. No reason was specified for the 
arrest, but it came in the same month that he released a petition 
called ``Learn from the Lesson Written in Blood and Push Democracy and 
Rule of Law Forward: An Appeal on the Sixth Anniversary of Tiananmen.'' 
On August 11, 1996, barely half a year after his second stint in 
prison, Liu joined with Wang Xizhe, a well-known dissident from the 
southern city of Guangzhou, to publish a statement on the sensitive 
topic of Taiwan's relations with mainland China. Earlier that year the 
Chinese military had fired missiles into the Taiwan Strait, in an 
apparent attempt to intimidate Taiwanese voters on the eve of 
presidential elections in which the issue of a formal declaration of 
independence from the mainland was at stake. In their statement, Liu 
and Wang wrote, ``Is the government of the People's Republic of China 
the only legitimate [Chinese] government? In our view, it is both 
legitimate and not completely legitimate.'' Less than two months later, 
on October 8, 1996, Liu was arrested again and sent for three years to 
a reeducation-through-labor camp in Dalian, in his home province of 
Liaoning. (Wang fled the country right after the declaration was issued 
and has since settled in the United States. He has never been back to 
China.)
    The story of Liu Xiaobo's courage from the mid-1990s on cannot be 
separated from his wife, Liu Xia. Four years younger than he, Liu Xia 
is a poet and art photographer whom Liu Xiaobo has known since the 
1980s and with whom he was living after his release from prison in 
January 1996. During his labor-camp incarceration, Liu Xia was allowed 
to visit him once a month, and, not missing a single month, made the 
1,100-mile round-trip from Beijing thirty-six times. Shortly after 
Xiaobo entered the camp, Liu Xia applied to marry him. Camp 
authorities, puzzled at her request, felt that they needed to check 
with her to be sure she knew what she was doing. She reports answering 
them by saying, ``Right! That `enemy of the state'! I want to marry 
him!'' A wedding ceremony inside the camp was impossible, and 
regulations forbade Xiaobo from exiting the camp, so the two married by 
filling out forms. On April 8, 1998, it was official.
    It was during the three years at the labor camp that Liu Xiaobo 
seems to have formed his deepest faith in the concept of ``human 
dignity,'' a phrase that has recurred in his writing ever since. It was 
also the camp environment that gave rise to many of his best poems. 
Many of these camp poems are subtitled ``to Xia,'' or ``for Xia,'' but 
that does not make them love poems in the narrow sense. They span a 
variety of topics--including massacre victims, Immanuel Kant, Vincent 
Van Gogh, and others--that the poet addresses with Liu Xia standing 
beside him, as it were, as his spiritual companion. Liu Xia has 
prepared a book of her art photographs, which are deeply probing in 
what they suggest about China's moral predicament in contemporary 
times, and she subtitles her book ``accompanying Liu Xiaobo.''
    On October 8, 1999, Liu Xiaobo returned from the reeducation camp, 
unreeducated. He resumed his writing career with no alteration of range 
or viewpoint, and lived primarily off his manuscripts, for which he was 
paid the equivalent of about US$60 to $90 per one thousand Chinese 
characters. In November 2003 he was elected chair of the writers' group 
Chinese PEN, and served in that post until 2007. During those years the 
rise of the Internet in China began to make a huge difference for Liu 
Xiaobo as well as for China as a whole. Finding ways to evade the 
government's ``Great Firewall,'' Liu now could access information, 
communicate with friends, organize open letters, and edit and submit 
his manuscripts all much easier than before. He also watched with great 
satisfaction as the numbers of Chinese Internet users passed 100 
million in 2006, giving rise to what he saw as ``free assembly in 
cyberspace'' and ``power of public opinion on the Internet'' that have 
turned into autonomous forces pushing China in the direction of 
democracy. In October 2006 Liu took over editorship of the Internet 
magazine Democratic China from his friend Su Xiaokang, who had been 
editing it from Delaware, and greatly expanded its reach inside China.
    Charter 08, which was conceived in conscious admiration of 
Czechoslovakia's Charter 77 of the 1970s, and which became the main 
piece of evidence against Liu Xiaobo at his criminal trial, did not 
originate with Liu Xiaobo. A number of his friends had been working on 
a draft for several months in 2008 before he chose to join them. I do 
not know why he at first stood aside, but my surmise is that he felt 
the project was unlikely to get anywhere. When he did join, though, his 
efforts were crucial, and became increasingly so in the weeks and days 
immediately before the charter was announced. He insisted that the 
charter not be a ``petition'' to the government; it was a way for 
citizens to address fellow citizens about shared ideals. He persuaded 
his friends to remove certain confrontational phrases so that a wider 
range of people would feel comfortable endorsing the charter, and this 
judgment was vindicated when more than twelve thousand people 
eventually signed. He personally did more than anyone else to solicit 
signatures, but his most courageous move in the days before the 
unveiling of the charter was to agree to present himself as its leading 
sponsor. He was already known as the most prominent ``dissident'' 
inside China; taking primary responsibility for this text would only 
put him more in the government's spotlight and at greater risk for 
punishment.
    He was not the only person punished for Charter 08. In the days 
right before and after it was unveiled, several others who had worked 
on drafting it saw their homes raided, or received from the police 
``invitations to tea'' (i.e., interrogation) of the kind one is not at 
liberty to decline. Then came a nationwide campaign to suppress the 
charter itself. But even in this context, the eleven-year prison 
sentence that Liu received surprised many observers for its severity. 
Liu himself said of the ruling, which arrived on Christmas Day 2009, 
only that it ``cannot bear moral scrutiny and will not pass the test of 
history.'' In his ``Final Statement'' he thanked his captors for the 
civil treatment he had received during his detention and declared that 
``I have no enemies.'' Then he appealed the ruling--not because he 
expected it could possibly be overturned, but because he wanted ``to 
leave the fullest possible historical record of what happens when an 
independent intellectual stands up to a dictatorship.''
    When the police came to remove Liu from his apartment late at night 
on December 8, 2008, they took him to a police-run hostel at an 
undisclosed location in Beijing for six months of ``residential 
surveillance.'' (Chinese law says that ``residential surveillance'' 
happens at a person's residence, but for Liu this was not the case. He 
was allowed two monitored visits with Liu Xia during this time, but 
those occurred at a third location, neither his home nor the secret 
place where he was being held.) On June 23, 2009, he was formally 
arrested and charged with ``incitement of subversion of state power,'' 
after which he was held at the Beijing Number One Detention Center. He 
continued to be held there after his trial in December 2009, and on May 
24, 2010, was transferred to Jinzhou Prison in his home province of 
Liaoning. (By custom, notable Chinese criminals are sent home for 
punishment.) Liu Xia has been granted occasional, but closely 
monitored, visits at the prison.
    We know very little of his prison conditions. Chinese Human Rights 
Defenders has reported that--as of late 2010--he was sharing a cell 
with five other inmates (although veterans of Chinese prisons suspect 
that these five, real inmates or not, are there to report on him). The 
other five are allowed weekly visits from family members, but Liu is 
allowed only monthly visits. Whether or not these visits can be from 
his wife depends on his behavior, on hers, and on the political 
``sensitivity'' of the times. (A Nobel Prize and an Arab Spring are the 
kinds of things that generate great sensitivity.) Liu eats low-quality 
prison food. His cell mates are allowed to pay the prison to get 
specially prepared, better food, but Liu is denied this option. He has 
chronic hepatitis and stomach problems, but receives only cursory 
medical attention. He gets two hours each day to go outdoors. He can 
read books that Liu Xia has brought to him, but only if they are books 
published and sold in China. There is a television set in his cell, and 
the prison authorities control which programs he can watch--but not, of 
course, how he understands them.

    This statement is based on my Introduction to No Enemies, No 
Hatred: Selected Essays and Poems of Liu Xiaobo (Harvard University 
Press, 2012).
                                 ______
                                 
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 

              Prepared Statement of Marian Botsford Fraser

                            december 6, 2011
    Chairman Smith, Co-Chairman Brown, Members of the Commission:
    My name is Marian Botsford Fraser, and I am the Chair of the 
Writers in Prison Committee of PEN International. Founded in 1921 and 
headquartered in London, PEN is the world's oldest human rights and 
literary organization. Our programs to celebrate literature and promote 
freedom of expression are carried out by 144 centers in more than 100 
countries, including PEN American Center in New York and PEN USA in Los 
Angeles, and our global membership includes many of the United States' 
most distinguished writers. PEN International is a non-political 
organization and holds consultative status at the United Nations.
    I am proud to chair the flagship program of PEN International, the 
Writers in Prison Committee, which in 2011 celebrated its 50th year of 
advocacy for persecuted writers and freedom of expression around the 
world. We work especially closely with our colleagues who are engaged 
in on-the-ground campaigning in countries where creative freedom and 
free expression are at risk. Among them are the members of Independent 
Chinese PEN Center, which just this year celebrated its own 10th 
anniversary and is one of the only NGOs still tolerated, though 
severely restricted, in China today. Liu Xiaobo, the 2010 Nobel Peace 
Prize laureate, is a former president of that center, and securing his 
release from prison is one of PEN's highest priorities.
    In Liu Xiaobo's case and in all our international advocacy, we are 
guided by the human rights laws and norms that countries around the 
world are required to uphold. The right to freedom of expression is 
enshrined in both the Universal Declaration of Human Rights, which was 
created 63 years ago this Saturday, and the International Covenant on 
Civil and Political Rights (ICCPR), to which nearly all states are 
party but for 19 U.N.-recognized states which have neither signed nor 
ratified it. The People's Republic of China is among seven states that 
have signed the covenant but have not yet ratified it.
    The freedom of expression clause is nearly the same in both 
instruments, and is represented under the same article, Article 19. 
Article 19 of the ICCPR states that:

        Everyone shall have the right to freedom of expression; this 
        right shall include freedom to seek, receive, and impart 
        information and ideas of all kinds, regardless of frontiers, 
        either orally, in writing or print, in the form of art, or 
        through any other media of his choice.

    Since China hosted the 2008 Beijing Summer Olympics--games it had 
secured by pledging to the world to expand protections for the human 
rights of its citizens--the Chinese government has carried out three 
successive crackdowns on its citizens' right to freedom of expression; 
the first beginning with Liu Xiaobo's detention on December 8, 2008, in 
connection with Charter 08, the document that he and 302 co-signers 
planned to release two days later, on International Human Rights Day. 
Three years later, Liu Xiaobo's ordeal stands as a glaring example of 
China's failure to uphold its citizens' universally-guaranteed right to 
freedom of expression.
    On December 25, 2009, a Beijing court convicted Liu of ``inciting 
subversion of state power'' and sentenced him to 11 years in prison. 
The verdict offered as evidence of this crime seven phrases that he 
penned from 2005 until his detention--all either quotations from his 
many essays or from Charter 08, which Liu had helped draft. In none of 
these phrases did Liu call for the overthrow of the government. He 
merely expressed opinions, offered critiques of the current state of 
affairs, and propounded ways to make life in the People's Republic of 
China better, more democratic, and more just.
    Earlier this year, the U.N. Working Group on Arbitrary Detention 
reviewed Liu's case and ruled that he is being arbitrarily detained in 
violation of three critical tenets of international law, including 
Article 19. In its responses to the Working Group's questions about his 
treatment, the Chinese government argued that the charges and 
conviction did not violate Article 19's guarantee of freedom of 
expression because Article 19 also states that freedom of expression 
carries ``special duties and responsibilities'' and therefore may be 
``subject to certain restrictions,'' including the protection of 
national security or public order.
    The working group, however, emphatically rejected this argument, 
noting that the proportionality that applies to these restrictions was 
not satisfied in this case, and ordered the Chinese government to free 
Liu Xiaobo immediately.
    We welcome this clear decision by the U.N., as we have welcomed the 
strong denunciations of Liu's imprisonment from a number of 
distinguished organizations and bodies, including this commission. PEN 
has been doing everything we can to win Liu Xiaobo's immediate and 
unconditional release from Jinzhou Prison in Liaoning Province, and 
secure the right of all Chinese citizens, our writer colleagues 
included, to express themselves freely without fear of censorship, 
imprisonment, or harassment. PEN centers around the world have raised 
Liu's case with their own governments, urging them to join the 
international condemnation of this clear human rights violation. Our 
members have brought his plight and his voice to prominence and into 
the public eye through readings, rallies, articles, letters, petitions, 
and events. Some of our most prominent members around the world, like 
Wole Soyinka, Salman Rushdie, Margaret Atwood, J.M. Coetzee, Tom 
Stoppard, Paul Auster, and Don DeLillo, were the first to speak on 
Liu's behalf, signing an open letter calling for his release in January 
2009.
    We are proud to note that PEN American Center President Kwame 
Anthony Appiah was among the influential figures who nominated Liu for 
the Nobel Peace Prize in January 2010, and even more proud that these 
endeavors succeeded. In Oslo, on December 10, 2010, I was honored to be 
part of a PEN delegation that was invited to attend the ceremony where 
Liu was awarded the prize in absentia. But as gratified as we were by 
this international recognition of our colleague's efforts to promote 
peaceful change in China, we were shocked and saddened that the Chinese 
authorities responded to the award with a second crackdown, this one 
including the extrajudicial house arrest of his wife, Liu Xia, who has 
been unable to communicate with the outside world since shortly after 
the Nobel Committee announced its selection of Liu Xiaobo last 
October..
    This crackdown was followed early this year by yet another, even 
more severe, wave of repression, this one targeting dissent thought to 
have been inspired by the revolutions in the Middle East and affecting 
a number of PEN members in China. Ye Du, the Independent Chinese PEN 
Center webmaster, was detained on February 21, 2011, and placed under 
``residential surveillance'' at an unknown location in Guangzhou 
Province for more than three months. Teng Biao, a renowned lawyer and 
the legal consultant for ICPC's Writers in Prison Committee, was 
disappeared on February 19, and mysteriously freed two months later. 
Neither has yet spoken of his ordeal, and it was only recently that 
each began speaking out for freedom of expression in his country once 
again through social media.
    It is worth noting that these arrests and disappearances violate 
not only international law, but China's own constitution as well. 
Article 35 guarantees that ``citizens of the People's Republic of China 
enjoy freedom of speech, of the press, of assembly, of association, of 
procession, and of demonstration.''
    This summer, deeply concerned over this series of crackdowns, but 
equally impressed by the incredible endurance of our colleagues, who 
continue to assert their rights despite constant harassment, PEN sent a 
delegation to Beijing to gauge the level of repression and the current 
climate for freedom of expression, and deliver a message of solidarity 
to our colleagues. What we found in the weeks leading up to the trip 
and, more importantly, on the ground in China, was a mixture of absurd 
restrictions and repression on the one hand, and positive signs and 
hope on the other.
    Professor Appiah, a very public nominator of Liu for the Nobel, was 
denied a visa for the trip. During his first attempts, his passport was 
inexplicably ``lost'' by consular officials. He got a new one, and 
applied again. Consular staff members then found his passport, but he 
was still denied, very likely for his nomination and activism on Liu's 
behalf, including his own testimony before this commission last 
November. Another American staff member's visa application was denied 
after consular officials held her passport for three weeks. She 
traveled to Hong Kong to lend real-time support while we were on the 
ground in the mainland.
    In Beijing, we were incredibly thankful for the support of American 
embassy officials, who offered space and time for a roundtable 
discussion with a number of our Chinese colleagues. Of the 14 writers 
the embassy invited to the meeting, however, only three were able to 
come. Many were visited by the guobao, or security police, and received 
warnings not to attend. We could only assume that their telephone and 
Internet communications were monitored, and that the embassy's may have 
been as well. Other, private meetings with individuals we arranged 
ourselves in private telephone conversations were canceled after visits 
from the guobao as well, suggesting our own communications were also 
being monitored.
    One of our primary ambitions on the trip was to meet with Liu Xia 
at her apartment in Beijing, but with her compound still guarded by 
authorities and her Internet and telephone service still cut, we were 
cautioned not to attempt a visit. Nor could we visit with Teng Biao, 
who was still under a virtual gag order following his release, or Ye 
Du, with whom the PEN community has an especially strong bond thanks to 
his presence at our international meetings, and who indicated he would 
welcome a visit. We were told that, though he had returned home from 
months of detention, he was still under house arrest, and security 
police required him to check in several times a day at a guardhouse 
erected outside his residence, making it impossible for anyone to 
visit.
    This was all extremely discouraging. We were frankly appalled by 
the intrusiveness of the surveillance state and the severity of the 
restrictions imposed on many of our PEN colleagues, even ones who are 
not alleged to have committed crimes. At the same time, we were 
surprised by the widespread--indeed, almost universal--dissatisfaction 
with state of freedom of expression in China. Many of the writers that 
we were able to meet with, even those not considered ``dissident'' 
writers or associated with ICPC, decried the level of censorship, the 
self-censorship necessary for publication, and the one-party rule that 
has allowed this kind of repression to flourish.
    These frank expressions seem to mirror the aspirations of China's 
ordinary citizens. On the tail end of our trip, a high-speed train 
collided with another outside the city of Wenzhou in Zhejiang Province, 
killing 40 people and injuring almost 200. The government's attempts to 
cover it up--which included trying to literally bury the train at the 
scene--sparked outrage around the country; in five days, Chinese 
citizens posted 25 million messages critical of the government's 
handling of the accident on China's microblogs. That campaign, which 
seemed unprecedented in its breadth and tenacity, has since been 
emulated in several other scandals and tragedies. These widespread 
criticisms of course caught the eye of censors, but not before the 
government was forced to reverse course and, in some instances, 
apologize.
    Similarly, those who attempt to comment on the kinds of 
``politically sensitive'' topics that dominate Liu Xiaobo's essays, and 
even Liu Xiaobo himself, have discerned new ways to get past the 
censors, utilizing homonyms (``river crab'' for ``harmonize,'' for 
example), taking and posting photographs of themselves silently 
supporting political prisoners, as in the ``Dark Glasses'' Campaign for 
the blind lawyer Chen Guangcheng, and using humor and satire. New forms 
of expression are being found to express bold new ideas throughout the 
country, despite the government's heavy hand.
    The Chinese government still does not allow the Independent Chinese 
PEN Center to function fully inside the country. Members are still 
monitored, gatherings are stopped, and members living outside the 
country are often prevented from visiting. After our time in Beijing, 
we celebrated ICPC's 10th anniversary in Hong Kong. As the American and 
international delegates were preparing to leave, three ICPC members--
including its president, Tienchi Martin-Liao, and prominent writers and 
ICPC founders Ma Jian and Bei Ling--were stopped at the border in 
Shenzhen and interrogated on their activities and their writings. And, 
of course, ICPC's own Liu Xiaobo still lives inside a Chinese prison, 
one of four ICPC members still in jail, and one of more than 40 writers 
whose cases PEN is following today.
    Still, there is an increased awareness of the plight of political 
prisoners within Chinese society, and a new questioning of the reasons 
for imprisoning these people in the first place. This fall, as the 
``Dark Glasses'' campaign for Chen Guangcheng spread on China's 
microblogs, ordinary citizens began to ask why this lawyer, who 
defended villagers in rural areas and exposed the persecution of those 
who defy China's one-child policy, was being confined inside his home 
after his release from prison, his young daughter prevented even from 
attending school. Reports that thugs were keeping outsiders from 
entering his village in Linyi, Shandong Province, spread, and prompted 
some to try to visit Chen to see for themselves.
    Murong Xuecun, a well-known and popular writer who we were lucky to 
meet while we were in Beijing, recently documented his own journey to 
Dongshigu village, and the beating that followed at its gates. Murong 
had advocated on Chen's behalf on microblogs, but it was at the 
prompting of one of his students that he first seriously considered 
attempting to visit. He and his group of three other men and one woman 
decided that no matter what, they would not raise their fists if the 
guards raised theirs. In a harrowing account of the group's encounter 
with the violent cadres that guard Chen that was published in The 
Guardian last month, he said ``We just wanted to verify what it takes 
in this country, at this time, to visit an imprisoned `free man.''' 
Many others have done the same.
    Chen Guangcheng still remains imprisoned in his own home, as does 
Liu Xia, and countless others are still watched closely, taken for tea, 
warned, harassed, and beaten. Liu Xiaobo sits quietly behind bars in a 
prison near the border with North Korea, and not many even know that 
one of their own won the Nobel Peace Prize. But this surge of activism, 
of citizens simply asking the question ``why,'' of seeking and 
imparting information, regardless of frontiers, lends hope that China 
is changing, and that change has begun with the people and their 
exercise of their internationally-protected, inalienable right to 
freedom of expression. People are coming to realize, as Murong said of 
Chen Guangcheng, that ``at the moment his freedom was arbitrarily taken 
away, your freedom came under threat.''
    One year ago this week, in his speech officially awarding Liu 
Xiaobo the Nobel Peace Prize, Norwegian Nobel Committee Chairman 
Thorbjorn Jagland noted that ``There are many dissidents in China, and 
their opinions differ on many points''; but that ``the severe 
punishment imposed on Liu made him more than a central spokesman for 
human rights. Practically overnight, he became the very symbol, both in 
China and internationally, of the struggle for such rights in China.'' 
He went on:

        But as Liu also writes, ``An enormous transformation towards 
        pluralism in society has already taken place, and official 
        authority is no longer able to fully control the whole 
        society.'' However strong the power of the regime may appear to 
        be, every single individual must do his best to live, in his 
        words, ``an honest life with dignity.''

    On the anniversary of that important day, PEN would like to thank, 
again, the Norwegian Nobel Committee, this commission, and all the 
governments, organizations, and individuals around the world that have 
stood with Liu Xiaobo--and by standing with him, standing with all the 
citizens of China who share this most fundamental aspiration--and we 
ask everyone to redouble their efforts, so that by this time next year, 
he and his wife Liu Xia are free.
                                 ______
                                 

                  Prepared Statement of Carl Gershman

                            december 6, 2011
    I have been asked to address briefly three issues: The impact of 
China on global democratic trends, including the significance of its 
so-called ``China model'' of authoritarianism; the prospects for 
democratic reform in China, including the necessary preconditions for a 
democratic transition; and finally, the influence of the Nobel Peace 
Prize on Chinese society and official policy.
    Regarding China's impact on global democratic trends, it is now 
common knowledge that China exerts an anti-democratic influence in 
world politics. Liu Xiaobo has said that China serves as ``a blood 
transfusion machine'' for smaller dictatorships in North Korea, Cuba 
and elsewhere. In addition to providing economic and political support 
to such regimes, it shares tactics bi-laterally with autocrats such as 
Lukashenko in Belarus, Mugabe in Zimbabwe, and Chavez in Venezuela; and 
it cooperates multilaterally with Russia and the Central Asian 
countries through the Shanghai Cooperation Organization.
    China also projects its system of authoritarian capitalism as an 
alternative model to the system of democracy with a mixed economy that 
exists in the United States, Europe, and many other countries around 
the world. There are some people in this country who are persuaded of 
this model's effectiveness. Just last Thursday, the SEIU's former 
President Andy Stern published an article in The Wall Street Journal 
entitled ``China's Superior Economic Model'' that praised its system of 
central planning.
    But this model is flawed for three fundamental reasons. First, as 
Liu Xiaobo pointed out in 2006 in his essay ``Changing the Regime by 
Changing Society,'' two decades of reform have eroded, to one degree or 
another, each of the four pillars of China's totalitarian system. 
Comprehensive nationalization is giving way to a system where 
independent economic activity ``has given individuals the material base 
for autonomous choices.'' The system of ``all-pervasive organization'' 
that eliminated all independent activity ``is gone, never to return,'' 
according to Liu, and the society is now ``moving towards freedom of 
movement, mobility, and career choice.'' The ``mental tyranny'' of an 
imposed ideology has succumbed to the information revolution that has 
awakened individual consciousness and awareness of one's rights. While 
the fourth pillar of political centralization and repression remains, 
people have lost the fear of repression, and the victims of 
persecution, far from being socially isolated and humiliated, now 
``inspire reverence'' in the society and are able to put their accusers 
``into the moral position of defendants.''
    The second reason the model is flawed, according to Yu Jianrong, 
the well-known Chinese scholar and sociologist, is that it is 
characterized by ``rigid stability'' and ``dichotomized, black and 
white thinking'' in which the ``expression of people's legitimate 
interests''--land issues for peasants, wages for workers, homeowner 
rights for urban residents, minority rights for Tibetans or Uyghurs-- 
becomes a threat to the social order and is adamantly opposed. A rigid 
system, according to Professor Yu, is by definition brittle and can 
break under stress. It lacks the resilience of democracy where 
government is accountable and conflicts can be resolved lawfully. 
Professor Yu fears that without such resilience, China will not be able 
to escape what he calls ``the tragic fate of two millennia of the cycle 
of alternating chaos and order.''
    The third flaw is that the Chinese regime lacks political 
legitimacy. It has achieved a degree of performance-based legitimacy by 
using market reform to generate material wealth. But such legitimacy is 
inherently unstable since it is not immune to the business cycle, which 
is why Chinese Premier Wen Jiabao, speaking after the National People's 
Congress in 2007, described the economy as ``unstable, unbalanced, 
uncoordinated, and unsustainable.'' No wonder the recent spike in 
worker protests in Guangdong has caused such alarm in Beijing. Without 
the authority that derives from receiving popular consent, Andrew 
Nathan has written, the Chinese regime lives ``under the shadow of the 
future, vulnerable to existential challenges that mature democracies do 
not face.''
    Regarding the preconditions and possibility for China's democratic 
transition, the picture is mixed. The brightest area is media 
liberalization, with social media and the Internet as a whole driving 
traditional media over the last five years. As Liu Xiaobo noted, this 
has spread democratic values, including rights awareness and the desire 
to hold government accountable. Even though those most active with 
social media only account for 40 percent of all Chinese Internet users 
and 14.2 percent of all Chinese, they are having an impact throughout 
the society, with even workers using cell phones and social networking 
platforms to organize informally, despite official restrictions.
    Less encouraging is the fact that civil-society organizations 
continue to be highly restricted. The immense Chinese countryside 
remains woefully underserved by civil-society organizations. In 
addition, the divide between rich and poor is growing, and a large part 
of the population now sees China's touted economic growth as being at 
their expense. Many have lost faith in rule of law as a result of 
recent government decisions to give more power and funding to the 
security apparatus and to bar independent candidates for district-level 
elections.
    Most democrats now look to the rights defense movement as a 
critical way to advance the possibility of a transition. With 
increasingly broad participation and a convergence between the middle 
class and the working class, this movement strives to bring the 
struggle of workers and farmers into the mainstream. It is pushing for 
concrete gains in rule of law, more distributive equity, better human 
rights protection, and more freedom of association and speech.
    However, the government has to date shown little interest in giving 
this movement the space it needs to foster the conditions for a gradual 
and peaceful transition. The concern of many Chinese activists is that 
increasing repression will delay a regime transition for so long that, 
when it does happen, which they think is inevitable, it will be 
accompanied by bloodshed and social turbulence. Thus, the probability 
of the regime surviving in its current form dwindles along with the 
possibility for a peaceful transition and democratic consolidation.
    Finally, regarding the influence of the Nobel Peace Prize, I think 
it deepened the Chinese government's legitimacy crisis. For one thing, 
as The Economist noted at the time, Beijing's ``disastrous'' response 
to the Prize betrayed for the whole world to see ``the government's 
insecurity at home.'' And it didn't help when the audience of thousands 
rose in repeated standing ovations as Liv Ullmann read ``I Have No 
Enemies,'' Liu's final statement at his trial, with his empty chair of 
honor constituting a powerful indictment of the regime.
    With all its stirring symbolism, the Nobel ceremony represented the 
confirmation by the international community of the sentiments of a good 
part of Chinese society. As Liu himself said three years before the 
Nobel award, political persecution ``has gradually turned into a 
vehicle for advancing the moral stature of its victims, garnering them 
the honors for being the `civic conscience' or the `heroes of truth,' 
while the government's hired thugs have become the instruments that `do 
the dirty work' '' Herein lies China's hope. May its leaders begin to 
listen to such heroes before it is too late.
                                  _____
                                 
               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 

                     Prepared Statement of Harry Wu

                            december 6, 2011
    It has been one year since Liu Xiaobo was awarded the Nobel Peace 
Prize, and now, just as then, he is still in jail. In 1960 I too was 
put in China's laogai prison camps because of my ideas, and I was there 
for 19 years. Fifty years later, China's regime has not changed how it 
handles dissenting opinions. I hope that today's hearing will draw 
renewed attention to Liu's case and remind the world what China does to 
those who dare to talk peacefully about democracy.
    Many people know that Liu was sentenced on charges of ``inciting 
subversion,'' but what crime did he really commit? Over the past few 
years, Liu has sent over 260 articles to our Observe China website for 
publication, and has also written on countless other overseas websites. 
His verdict mentioned several ``subversive'' articles by name, 
including three articles published on the Observe China website, 
including: ``Can It Be That the Chinese People Deserve Only 'Party-led 
Democracy'?,'' ``The Many Aspects of CPC Dictatorship,'' and ``Changing 
the Regime by Changing the Society''. Observe China is blocked by the 
``Great Firewall'' and is inaccessible to most mainland Chinese 
Internet users. How does the CCP
    block controversial articles, while at the same time tracking their 
writers and readers? We have American technology companies to thank for 
this, and ultimately, for the arrest of great thinkers like Liu Xiaobo.
    Last year I was in Oslo for the Nobel Peace Prize award ceremony. 
Although many Chinese tried to attend the ceremony in support of Liu, 
they were blocked from leaving China by the government. Not even his 
wife, Liu Xia, was there to fill his empty chair. Even so, I was very 
happy that a Chinese dissident was finally awarded the prize. It is a 
sign that the world will not sit quietly while the CCP cracks down on 
freedom of speech.
    Many different people came to Oslo to honor Liu Xiaobo. When I 
opened up the program for the ceremony, I was surprised to see a 
message from John Chambers, CEO of Cisco Systems, Inc. He noted that 
Cisco has been a sponsor of the Nobel Peace Prize Concert since 1999 
and that, ``Cisco is working to help individuals, companies, and 
countries to use the Internet to collaborate, educate, empower, and 
further the ideals and innovations inspired by Alfred Nobel and his 
legacy.'' I was shocked that Cisco could say this, when around the same 
time that the company began supporting the Nobel Peace Prize, it also 
began supporting China's authoritarian regime through its massive 
``Golden Shield Project''. I realized that Cisco shows a different face 
to the international community than it does to its clients. Through its 
decade-long partnership with the Chinese government, Cisco technology 
and training has ensured that Chinese activists like Liu Xiaobo are 
excluded from participating in this vision of what the Internet can and 
should be.
    Cisco claims to be a company dedicated to encouraging free speech 
and upholding a commitment to human rights. Yet in reality, Cisco is a 
company that will do business with any partner, so long as it turns a 
profit--even at the expense of other people's rights and freedoms. One 
day when Liu Xiaobo is released, I am confident that he too will demand 
to know just how the Public Security officials were able to track him 
down and how the government is able to exert such control over both 
internet content and internet users.
    Unfortunately, Liu Xiaobo's situation has not changed much since 
last year. Several months after the awards, his wife Liu Xia--who had 
previously been under house arrest--became unreachable. Prior to this, 
the Laogai Research Foundation had been able to maintain some contact 
with her in order to provide the couple with regular financial support 
from the Yahoo! Human Rights Fund. We have also sold nearly 2,000 
copies of Liu Xiaobo's Chinese publications: Civil Awakening--The Dawn 
of a Free China and Strive for Freedom--Selected Writings of Liu 
Xiaobo. Since February 2011, we have not been able to get either of 
these payments to them. Soon we will publish the English translation of 
Civil Awakening, so that Liu Xiaobo's message of optimism, democracy, 
and peaceful dissent can reach the international community, even while 
he serves out his 11-year prison sentence.
    When I was in the laogai, political dissidents were treated just 
like all the other criminals, if not worse. We worked long hours and 
were often beaten or mistreated by prison guards. At night we had to 
attend political reeducation sessions and criticize each other for 
holding counterrevolutionary ideas. Over the last few decades, 
conditions inside the laogai are no longer as severe, but the 
fundamental principals that drive the prison system remain the same: 
prisoners are forced to labor and are forced undergo to political 
thought reform.
    By the 1990's China realized that if it wanted to export its prison 
labor products internationally, it would have to conceal the origins of 
the products. Since 1994, China has stopped using the word ``laogai,'' 
and now refers to the camps as mere ``prisons''. Yet today, Liu Xiaobo 
remains locked up in Jinzhou Prison in Liaoning province, also known as 
Jinzhou Jinkai Electrical Group or Jinzhou Xinsheng Switch Co. 
According to reports, it is the largest prison in Liaoning province, 
with the majority of prisoners having sentences of 10 years or more. 
The inmates produce a wide variety of electrical equipment including 
household products, circuits, machine components, transformers, and so 
on. As of 2008, two of its prison enterprises were listed in Dun & 
Bradstreet, and today, Jinzhou Xinsheng Switch Co. continues to be 
listed on a number of English business directory websites.
    Despite the continued use of forced labor, China has grown 
increasingly concerned about its soft power and international image. 
Thus, the CCP has afforded more prominent political prisoners like Liu 
Xiaobo better treatment. This fall, he was even allowed to return home 
to mourn the death of his father, and was permitted a rare visit by 
close family. The CCP has learned to treat high-profile dissidents 
differently, fearing that any word of abuse would enrage the 
international community. Liu may not be forced to do hard labor, but 
what about those who are not in the media spotlight, those who are not 
lucky enough to escape forced labor? Must a man win the Nobel Prize to 
be treated with dignity and have his most basic rights respected?
    Today we still do not know what kind of persecution Liu and his 
wife are enduring, but one thing is for certain--it is undeserved. Liu 
said himself that, ``it is time we move beyond a society where words 
are viewed as crimes.'' But the Chinese Communist Party has a long
    history of abusing prisoners of conscience in order to minimize 
dissent and maximize what it views as ``stability''. In 2009, around 
the time of his most recent arrest, authorities had tried to convince 
Liu to leave China instead of stirring up trouble at home, but he 
refused. It is clear that Liu Xiaobo will not abandon his democratic 
ideals, nor will he give up voicing his opinions. Therefore, there is 
no telling if the Chinese government will reduce his sentence. So until 
that day comes, it is critical that the U.S. government and 
international human rights advocates speak out on his behalf, telling 
the Chinese Communist Party that he is not forgotten and that his 
vision of a better future will not quietly fade away. We should not 
talk about ``political reform'' in China, because to the CCP, 
``political reform'' means finding a way to keep itself in power even 
as its people demand more freedoms. True change in can only happen in 
China if and when the CCP falls. The Chinese people will not tolerate 
the Communist Party's repression forever.
                                 ______
                                 

                Prepared Statement of Reggie Littlejohn

                            december 6, 2011
    Mr. Chairman and Members of the Commission:
    Thank you for holding this timely hearing about conditions of 
political prisoners in China. It is a truly humbling opportunity to 
testify about one of the most courageous individuals, not only in 
China, but also in the world: blind, self-taught lawyer, Chen 
Guangcheng. I begin by commending the Chairman, Congressman Chris 
Smith, for his recent attempt to go to China to visit Chen. Mr. 
Chairman, your tireless efforts to raise the visibility of Chen's case 
are having an impact.
    Chen Guangcheng was arrested in 2006 for helping to expose the 
Chinese government's use of forced abortion and involuntary 
sterilization to enforce its ``One Child Policy.'' He amassed evidence 
that forced abortions and involuntary sterilizations were used 
extensively on women in Linyi City, Shandong Province in 2005. Time 
Magazine named him one of ``2006's Top 100 People Who Shape Our World'' 
and he was given the 2007 Magsaysay award, known as Asia's Nobel Prize.
    Simultaneous with this testimony, I am submitting a report from 
Chen Guangcheng's 2005 investigation into coercive family planning in 
Linyi County, Shandong Province. A member of Chen's team, human rights 
attorney Teng Biao, drafted the report. This report contains extensive 
witness statements from cases Chen and his team were investigating 
before Chen was jailed. In this report are detailed accounts regarding:

        <bullet> A woman forcibly aborted and sterilized at seven 
        months;
        <bullet> Villagers sleeping in fields to evade Family Planning 
        Officials;
        <bullet> Family Planning Officials who broke three brooms over 
        the head of an elderly man;
        <bullet> Family Planning Officials who forced a grandmother and 
        her brother to beat each other; and
        <bullet> The use of quota systems and the practice of 
        ``implication'' - the detention, fining and torture of the 
        extended family of One Child Policy ``violators.''

    The Chen Guangcheng report makes clear: the spirit of the Cultural 
Revolution lives on in China's Family Planning death machine. WRWF has 
chosen to release the names of the perpetrators of these crimes against 
humanity, so that they can be held accountable before the world.
    Things may not have improved in Linyi since 2005. Earlier this 
year, Family Planning Officials stabbed a man to death.\1\ A woman, six 
months pregnant, recently died during a forced abortion in Lijing 
County, also in Shandong Province.\2\
    For exposing and opposing coercive family planning in China, Chen 
spent four years, three months in prison. His defense lawyers were 
detained on the eve of trial. Since his September 2010 release, he has 
continued to serve a sentence of home detention. Both in prison and 
under house arrest, Chen has experienced mistreatment and beatings. He 
suffers from a chronic, debilitating intestinal illness for which he 
has not been allowed treatment.
    According to a February, 2011 video, which Chen and his supporters 
managed to smuggle out of China, sixty-six security police surround his 
home constantly. He and his wife are not allowed sufficient food and 
are isolated from all outside contact. No one can enter or leave their 
home, except officials, who can enter at any time, without notice.
    We received evidence that blind activist Chen Guangcheng's health 
was in serious jeopardy because of repeated beatings and the 
malnutrition he suffers in house detention. According to a June 15, 
2011 letter written by Chen's wife, and smuggled out of China, Chen has 
faced constant physical and psychological abuse, does not get 
sufficient food or nourishment, and is denied proper medical treatment. 
Foreign journalists have been forcibly denied access to him, and 
lawyers who tried to help Chen were beaten and detained in February 
2011, including Jiang Tianyong and Teng Biao, who were detained for two 
months or more.\3\
    In September and October 2011, human rights campaigners and 
visitors seeking to see Chen were beaten and detained.\4\ Also in 
September, police detained Chen's brother, who was meeting with 
activists.\5\
    Women's Rights Without Frontiers and the China Aid Association are 
spearheading an international effort to free Chen Guangcheng. Thus far, 
we have collected 6463 signatures from 28 countries.\6\
    WRWF congratulates Rep. Chris Smith on his successful sponsorship 
last July of an amendment to the State Department Appropriation Bill, 
in support of Chen Guangcheng and his family. This amendment, which 
passed unanimously, urges the Chinese government to stop harassing the 
Chen family, to release them from house arrest, and to arrange for 
immediate medical treatment. It further urges the Obama administration 
to arrange diplomatic visits to the Chen family. Beyond this, it 
highlights the tragedy of forced abortion and coercive family planning 
in China.\7\
    In early October, we received an unconfirmed report through Voice 
of America that villagers had said that Chen had died. All efforts to 
confirm that report failed, as it was impossible to gain access to 
Dongshigu Village in Linyi to verify it.
    Relativity Media, however, was able to gain access to Linyi, in 
order to film the feature-length comedy, ``21 and Over.'' When 
challenged on its choice of Linyi out of the thousands of possible 
locations in China, and urged to apologize for its lack of sensitivity 
to Chen Guangcheng and human rights, Relativity Media issued a 
statement defending its action. Women's Rights Without Frontiers has 
called for a international boycott of ``21 and Over.''
    November 12, 2011 was Chen's 40th birthday. Although no one knew 
for sure whether Chen was dead or alive, brave citizens from many areas 
of China attempted to visit Chen's village to wish him a happy 
birthday. All of them were turned back from the village, some 
violently, by thugs and plain-clothes police.
    Finally, just this weekend, Women's Rights Without Frontiers 
received a credible report that Chen is indeed alive. In fact, 
according to a key activist in China, the conditions of Chen's 
detention have improved slightly.
    According to this source, who requested anonymity, ``Now his mother 
is allowed to go outside to buy food although escorted by three guards, 
and his health also is getting better.''
    The source attributed the improved treatment of Chen to the fact 
that ``Chen's situation was exposed and got huge public attention.'' 
One campaign that brought considerable visibility to Chen's plight was 
the flow of concerned citizens attempting to visit him, leading up to 
his 40th birthday on November 12.
    In addition, the Chen Sunglasses Campaigns inside and outside of 
China have raised the visibility of his case. These campaigns post 
photos of people wearing sunglasses in support of Chen. The source 
stated, ``I think it's very helpful for people all over the world to 
show they care about Chen through the Sunglasses Campaigns. I think 
it's very important to show support inside and outside the country - we 
can work together.'' \8\
    Women's Rights Without Frontiers is collaborating with the Dark 
Glasses Portrait Campaign headed by a courageous Chinese political 
satirist and cartoonist, whose pen name is Crazy Crab.
    The source continued, ``Chen's situation has indeed improved. I 
have just sent him some medicine and covered the expenses for his 
family in the market . . . Some relatives can visit his mother and 
deliver some items under surveillance.''
    The source cautioned, however, that the slightly improved condition 
of Chen's house arrest is not a reason to relax the campaign to free 
him. Most relatives of Chen and his wife are not allowed to visit, 
including their son and his wife's parents. We do not know what his 
medical condition is. Moreover, the source indicated, the fact that 
Chen is now allowed food and medicine ``is still far away from our 
basic request, that is, Chen should be freed right away, according to 
China's own law.''
    According to the source, the persecution of Chen supporters 
continues. An activist who announced that she would wear sunglasses in 
Linyi's central square this past weekend was detained on December 1. 
That same day, another activist from Yantai and a writer from Beijing, 
were arrested in Shandong attempting to distribute plastic bags and 
balloons bearing Chen's image, in honor of International Day of Persons 
with Disabilities, celebrated December 3.
    Women's Rights Without Frontiers is thrilled and relieved to 
receive a credible report that Chen is alive and his health is 
improving. This improved treatment demonstrates the power of the 
collaborative effort inside and outside China to raise the visibility 
of his case. We greatly admire the brave citizens inside China, who are 
risking their safety to stand up for Chen.
    We commend the courageous and persistent efforts of Rep. Chris 
Smith to visit Chen and urge the Chinese government to grant him a 
visa. We also urge U.S. Ambassador to China, Gary Locke, to visit Chen 
directly. We demand the immediate, unqualified release of Chen 
Guangcheng and his family. Chen's ongoing house arrest is illegal and 
his medical condition remains weak.
    The Chinese Communist Party has attempted to silence Chen, but they 
cannot silence the voices of millions in China crying for his freedom. 
The report that Chen is alive and in improved condition should not be a 
reason to relax efforts on his behalf. To the contrary, these efforts 
are having an impact and should intensify until Chen is free.
                            recommendations
        <bullet> The international community should make official 
        interventions on behalf of Chen with the Chinese government and 
        raise Chen's case in bilateral discussion and multilateral 
        institutions in which China is a member.
        <bullet> Diplomats from the U.S., E.U., Norway, Canada, 
        Australia, Switzerland and other countries with human rights 
        dialogues with China - including U.S. Ambassador to China Gary 
        Locke--should seek access to Chen and his wife Yuan Wejing and 
        press the Chinese government to stop its mistreatment of Chen, 
        allow for proper medical attention and arrange for his 
        immediate and unconditional release.
        <bullet> Organizations and individuals concerned with human 
        rights, women's rights, and religious freedom should call and 
        write Chinese embassies and consulates around the world and 
        sign the petition to Free Chen Guangcheng at: 
        www.womensrightswithoutfrontiers.org/
        index.php?nav=chenguangcheng#petition
    ___________

    \1\ 1Ahttp://www.womensrightswithoutfrontiers.org/blog/?p=147
    \2\ 1Ahttp://www.womensrightswithoutfrontiers.org/blog/?p=429
    \3\ 1AA copy of the original letter in Mandarin can be obtained by 
emailing ChinaAid at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e7c717c786b5e7d7677707f7f777a30716c79">[email&#160;protected]</a> or by calling 267.205.5210. An 
English translation can be found here: http://
www.womensrightswithoutfrontiers.org/index.php?nav=yuan-weijing
    Here is a three minute video calling for urgent action: Free Chen 
Guangcheng! http://www.youtube.com/watch?v=OpVJidDqVJo
    \4\ 1A``Chen Supporters Attacked,'' 9/19/11 http://www.rfa.org/
english/news/china/attacked-09192011123000.html; HRIC Testimony at CECC 
Hearing on Chen Guangcheng, 11/1/11 http://www.hrichina.org/content/
5611
    \5\ 1A``Police Detain Nanjing Activists,'' 9/8/11 http://
www.rfa.org/english/news/china/activists-
09082011152203.html?searchterm=None
    \6\ 1AThe petition to free Chen Guangcheng can be found here: 
http://www.womensrightswithoutfrontiers.org/index.php?nav=sign--our--
petition
    \7\ 1A``Amendment for Blind Activist Chen Guangcheng Passes 
Today,'' 7/22/11 http://www.womensrightswithoutfrontiers.org/blog/
?p=316
    \8\ 1AThese campaigns, spearheaded by Women's Rights Without 
Frontiers and Dark Glasses Portrait, can be found at http://
www.womensrightswithoutfrontiers.org/index.php?nav=chen-guangcheng and 
http://ichenguangcheng.blogspot.com/.
                                 ______
                                 

                      Prepared Statement of Bob Fu

                            december 6, 2011
    Esteemed members of the Congressional-Executive Commission on 
China, government officials and guests,
    The fact that human rights, the rule of law and religious freedom 
in China have all seriously deteriorated in 2011 is already well known 
to all. Therefore, this hearing on the anniversary of the awarding of 
the Nobel Peace Prize to Liu Xiaobo is highly significant.
    Based on incomplete statistics, we know that about 100 lawyers, 
rights activists and dissidents have been ``disappeared,'' tortured, 
imprisoned and even sentenced to prison terms in the first 11 months of 
this year. From February to July, more than 1,000 rights activists and 
dissidents across the country were ``invited to drink tea and chat'' 
with or were threatened by police or Domestic Security Protection 
agents. They included: eight lawyers appearing in a court in 
Heilongjiang province who were beaten up by police--one was a woman 
lawyer who was so badly beaten that she miscarried; human rights 
lawyers Gao Zhisheng, Fan Yafeng, Cheng Guangcheng, Teng Biao, Jiang 
Tianyong, Tang Jitian, Ms. Li Tiantian, Li Fangping, Li Xiongbing, Li 
Subin and Tang Jingling; and other activists, artists and writers, such 
as Ai Weiwei, Yu Jie, Ran Yunfei, Ding Mao, Wang Lihong, Zhu Yufu, 
Zhang Yongpan, Zhang Dajun, Ye Du and others .
    Although most of the freedom of religion measures that ``Charter 
08'' calls for are guaranteed in Article 36 of China's own 
Constitution, in practice and in reality, implementation falls far 
short. Broad discrimination against and persecution of independent 
religious groups and people of faith have been increasing in the past 
12 months. Just last week, we received reports that at least 11 Uyghur 
Muslims were detained and four were placed under criminal detention. 
What crime did they commit? They were accused of ``engaging in illegal 
religious activities'' because they were reading the Koran in their own 
homes. Since April 10 this year, members of Beijing Shouwang Church 
have experienced weekly detention, harassment and abuse for 35 weeks in 
a row. The entire church leadership has been under house arrest, 
without freedom of movement, the entire time. Many believers have lost 
their jobs and been evicted from their rented apartments. Why? Again, 
it is because they have been accused of ``engaging in illegal religious 
activities'' - in their case, by worshipping in a public space. Never 
mind that they were forced to worship in an outdoor public area because 
the government forced the church out of its rented worship place and 
made it impossible for it to move into its own purchased facility.
    Ever since the fall of Communism in the former Soviet Union and 
Eastern Europe, the Chinese Communist Party has acted as though mafia 
groups can be tolerated but not independent religious believers. The 
treatment of house church Christians, Falun Gong practitioners, Uyghur 
Muslims and Tibetan Buddhists has been far worse than other so-called 
``unstable social elements.'' Torture and brainwashing with drugs have 
been used to achieve what the authorities call ``transferring the 
mindset'' of these believers.
    As we all know, Liu Xiaobo's ``Charter 08'' calls for many 
freedoms, of which freedom of religion is only one. However, we at 
ChinaAid firmly believe that freedom of religion is the first freedom, 
and that it cannot be separated from the other freedoms that Charter 08 
calls for:

    ``9. Freedom to Form Groups. The right of citizens to form groups 
must be guaranteed. The current system for registering nongovernmental 
groups, which requires a group to be ``approved,'' should be replaced 
by a system in which a group simply registers itself. The formation of 
political parties should be governed by the constitution and the laws, 
which means that we must abolish the special privilege of one party to 
monopolize power and must guarantee principles of free and fair 
competition among political parties.
    10. Freedom to Assemble. The constitution provides that peaceful 
assembly, demonstration, protest, and freedom of expression are 
fundamental rights of a citizen. The ruling party and the government 
must not be permitted to subject these to illegal interference or 
unconstitutional obstruction.
    11. Freedom of Expression. We should make freedom of speech, 
freedom of the press, and academic freedom universal, thereby 
guaranteeing that citizens can be informed and can exercise their right 
of political supervision. These freedoms should be upheld by a Press 
Law that abolishes political restrictions on the press. The provision 
in the current Criminal Law that refers to ``the crime of incitement to 
subvert state power'' must be abolished. We should end the practice of 
viewing words as crimes.
    12. Freedom of Religion. We must guarantee freedom of religion and 
belief, and institute a separation of religion and state. There must be 
no governmental interference in peaceful religious activities. We 
should abolish any laws, regulations, or local rules that limit or 
suppress the religious freedom. 

    The persecution that ChinaAid has documented in the first 11 months 
of 2011 occurred in 11 provinces, one municipality under direct central 
government jurisdiction and three autonomous regions - that is, in 
nearly half of China's regions and cities. Nearly 30 house churches 
were persecuted, affecting more than 1,500 believers. The number of 
Christians arrested or detained exceeds 300. If we take into account 
the number of people from Shouwang Church who were detained by police 
in the 35 times the congregation has met for outdoor Sunday worship 
services, the number would be as high as 1,000. Dr. Fan Yafeng, the 
prominent Christian constitutional law scholar and pioneer in China's 
legal rights defense movement has been under house arrest December 
2010, with all forms of communication with him severed; Shouwang Church 
pastor Jin Tianming and other church leaders have been held under house 
arrest for eight months; the Chinese House Church Alliance is under 
attack, with its vice president, Pastor Shi Enhao, being sentenced in 
July to two years of re-education-through labor; in Xinjiang, in 
China's far west, Uyghur house church leader Alimujiang is serving a 
15-year sentence; while in Beijing, the chief representative of a video 
and film company, Ms. Jiang Yaxi, was criminally detained on November 
11 for distributing a government-approved Christian documentary. These 
are but a few of the cases ChinaAid has documented.
    What we have seen in 2011 has been the continuation and escalation 
of the Chinese government's comprehensive suppression of independent 
religious groups and dissident groups since the September 2010 Lausanne 
Congress on World Evangelization and the awarding in October of the 
Nobel Peace Prize to Liu Xiaobo. The Hu Jintao government has since the 
2008 Olympic Games reinstated some of the Communist Party's most 
extreme political ideologies, resulting in a serious and overall 
deterioration in human rights, the rule of law and religious freedom in 
China.
    The October 29 adoption of an amendment to the Resident Identity 
Card Law provides additional legal basis for this deterioration. The 
Resident Identity Card Law was amended to say, ``When citizens apply 
for, change or register their ID cards, they should be fingerprinted.'' 
This measure broadens the scope of the police's ability to investigate 
and expose citizens' private affairs. Furthermore, the amendments to 
Articles 38 and 39 of the Criminal Procedure Law say that, in the case 
of ``crimes that endanger national security and terror crimes,'' 
subpoenas can be indefinitely extended and notification of family and 
relatives of an arrest or house arrest can be indefinitely delayed. 
This provides sufficient legal grounds for secret detentions and 
imprisonments.
    The examples mentioned heretofore are just the tip of the iceberg. 
The persecution and suffering that the Chinese people have endured is 
impossible to measure in mere numbers. This year, even the families of 
those who work for ChinaAid have been harassed and threatened in China 
by the police on many occasions.
    On the one-year anniversary of the awarding of the Nobel Peace 
Prize to Liu Xiaobo, Liu is still serving time in prison for the very 
act for which he was awarded the Prize. Meanwhile, his wife, Liu Xia, 
is still under house arrest. This embarrassing fact not only is China's 
sorrow, it is also evidence of the failure of the power of world 
justice. The failure of international efforts to bring about justice is 
not necessarily because Communist China today is stronger and more 
powerful than Germany and Japan were during World War II or the Soviet 
Union was during the Cold War. Rather, it is because the international 
community -in particular the Western world--is no longer staunchly 
guarding and holding fast to the concepts of freedom, justice and human 
rights that it once did. The result is fear when noble sacrifice is 
necessary and retreat when a price must be paid. Added to which is the 
lure of money and personal interests. All of these factors corrupt the 
spirit and dissipate courage, spreading ever wider just like the 
current economic crisis.
    In America, this great and free country, we have before us the 
shining examples of many great heroes: General George Washington, and, 
sitting on the other end of the Mall as though watching us, is 
President Lincoln; and there's also black civil rights leader Martin 
Luther King as well as President Reagan, who faced up to the Soviet 
empire and never gave an inch nor ever considered doing so. The 
indomitable spirit and the commitment to freedom and human rights that 
they and many others who went before us held firm are like a bright 
torch shining throughout America's history.
    Happily, in the generally disturbing circumstances of 2011, the 
sudden release in Sichuan province of Mr. Ding Mao was an encouraging 
development and the news spread quickly, giving hope to those of us who 
have become a bit weary in our fight for freedom and human rights in 
China. Many of you sitting here today perhaps remember seeing Mr. 
Ding's petite but strong wife, who came to the United States, a country 
she'd never been to before, to plea in Congress and in the Executive 
Building and to the media for the release of her innocent husband. This 
brave Chinese woman represents the thousands and tens of thousands of 
wives in China who refuse to bend to the power of an evil government, 
who stand shoulder-to-shoulder with their husbands, defending their 
families without hesitation---ever willing to make huge sacrifices for 
the sake of a future China where there is equality, freedom and human 
rights.
    So, let us bravely stand with them, just as you and the consular 
officers in Sichuan stood with Ms. Feng Xia, and in so doing won the 
quick release of her husband.
    The Lord is with us! May we draw encouragement from the words of 
Hebrews 10: 35-36:

         ``So do not throw away your confidence; it will be richly 
        rewarded. You need to persevere so that when you have done the 
        will of God, you will receive what he has promised.''
                                 ______
                                 

Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
 from New Jersey, Chairman, Congressional-Executive Commission on China

                       tuesday, december 6, 2011

                    Excerpts from Hearing Statement

    One year after the independent Nobel Committee awarded the Nobel 
Peace Prize to Liu Xiaobo, who is a Chinese intellectual and democracy 
advocate, Liu remains isolated in a prison thousands of miles away from 
his wife, whom authorities are holding under house arrest in Beijing.
    In February 2010, I led a bi-partisan group of lawmakers in 
nominating Liu for the prize - at the same time nominating two other 
persecuted human rights advocates, Chen Guangcheng and Gao Zhisheng, to 
be joint recipients - as part of an international tide of support for 
the awarding of the prize to Liu Xiaobo.
    The Nobel Committee awarded the 2010 Nobel Peace Prize to Liu 
Xiaobo ``for his long and non-violent struggle for fundamental human 
rights in China.'' H.Res. 1717, which I authored, congratulating Liu on 
the awarding of the prize passed the House with a vote of 402-1--
exactly one year ago this week.
    Chinese authorities, on the other hand, tried Liu and sentenced him 
to 11 years in prison for ``inciting subversion of state power,'' the 
longest known sentence for that crime, simply for exercising his 
internationally-recognized right to free expression. According to 
Chinese authorities, Liu's conviction was based on Charter 08 and six 
essays he wrote.
    Liu Xiaobo signed Charter 08, which is a treatise urging political 
and legal reforms in China based on constitutional principles. Charter 
08 states that freedom, equality, and human rights are universal values 
of humankind and that democracy and constitutional government are the 
fundamental framework for protecting these values.''
    Characteristic of the Chinese government, officials blocked access 
to Charter 08. They have questioned, summoned, or otherwise harassed a 
large number of Chinese citizens for contributing to or signing that 
document.
         chinese officials angry over awarding of prize to liu
    Chinese officials apparently remain livid over the awarding of the 
prize to Liu, and they continue in their campaign to malign Liu and the 
Nobel Committee. In addition, they have nearly suspended political 
relations with the Norwegian government, claiming the awarding of the 
Peace Prize to Liu had done ``great damage'' to the relations between 
China and Norway. They blame the Norwegian government because it 
``supported this wrong decision.''
                            liu's legal case
    The apparent violations of Chinese legal protections for defendants 
that have marred Mr. Liu's case from the outset are numerous and well-
documented. In addition, the United Nations Working Group on Arbitrary 
Detention determined that the Chinese government's detention of Liu and 
the house arrest of his wife are indeed arbitrary.
    Mr. Liu's trial and sentence demonstrates once again the Chinese 
government's failure to uphold its international human rights 
obligations and also its failure to abide by procedural norms and 
safeguards that meet international standards.
    While authorities did allow Liu to attend his father's funeral 
memorial service in October, they continue to limit visits from his 
wife. Over the past year, authorities have allowed her to visit her 
husband only on a few occasions.
    Beijing authorities are holding Liu's wife in a de facto form of 
house arrest. They have cut off telephone and internet, and have made 
her house off-limits to visitors.
                liu xiaobo is not alone: chen guangcheng
    As we all know, sadly, Liu Xiaobo is not alone. As of September 1, 
2011, the CECC's political prisoner database, perhaps the greatest 
database in the world, contained information on 1,451 cases of known 
political or religious prisoners currently detained.
    Chen Guangcheng is one of these prisoners. Chen is a blind, self-
taught legal advocate, who advocated on behalf of farmers, the 
disabled, and women forced to undergo abortions. Authorities have held 
him under a form of house arrest in Linyi county, Shandong province 
since his release from prison in September 2011. In effect, Chen's 
prison sentence has not ended.
    Chen served over four years in prison on charges of ``intentional 
destruction of property'' and ``organizing a group of people to disturb 
traffic.'' His real crime, however, was publicizing the abuses of local 
one child policy officials and trying to use the Chinese legal system 
to seek justice for the victims of those abuses.
    For months, officials have confined Chen and his wife in their 
home, beaten them, and subjected them to 24hour surveillance. Officials 
have set up checkpoints around the village where Chen lives to prevent 
journalists and ordinary citizens from visiting him and his family. 
According to one report, 37 people who tried to enter the village in 
October were attacked by 100 thugs.
    Under great pressure, authorities recently allowed Chen's elderly 
mother to go out and buy groceries and other supplies, have allowed his 
six-year-old daughter to go to school flanked by security, and have 
allowed Chen some medicine sent by supporters, although they have not 
allowed him to see a doctor about his egregious health problems.
    These small concessions mean little in the larger picture. Publicly 
available laws do not seem to provide any the legal basis for holding 
Chen and his family as prisoners in their own home. I would note 
parenthetically that as Chairman of this Commission, I and members and 
staff of this Commission tried to meet with Chen on his 40th birthday. 
We were denied a visa. We will try in an ongoing attempt to obtain a 
visa to visit China on a number of human rights issues, including Chen 
Guangcheng.
                              gao zhisheng
    And now there is the case of Gao Zhisheng. Authorities' treatment 
of the once acclaimed lawyer, Gao Zhisheng is even more shocking and 
illustrates the brutality of some officials. Officials revoked Mr. 
Gao's law license in 2005 in response to his brave efforts to represent 
fellow Christians accused of ``illegally'' distributing Bibles, and to 
defend workers and Falun Gong practitioners. In 2006, officials 
sentenced Gao to three years in prison on the charge of ``inciting 
subversion,'' but suspended the charge for five years.
    The five-year suspended sentence is set to expire later this month. 
Today, however, there is no word about Mr. Gao's whereabouts.
    After Mr. Gao wrote an open letter to the U.S. Congress in 2007 
criticizing China's human rights record, officials brutally tortured 
him for 50 days, beating him electric prods, abused him with toothpicks 
and threatened to kill him if he told anyone of his treatment.
    Mr. Gao disappeared into official custody in February 2009. When he 
resurfaced briefly in March 2010, he told friends that he would 
``disappear again'' if his statements about his treatment by his 
captors since 2009 were made public. After authorities disappeared him 
again, the press went public about his torture, which included a 
beating with guns in holsters for a period of over two days, which 
reportedly made him feel close to death.
                   human rights and political reform
    It does not seem appropriate to talk about political reforms in 
China when there has been so little progress in improving civil and 
political rights and when authorities continue to mistreat people like 
Liu, Chen, and Gao. The political prisoners for whom we have names are 
just the tip of the iceberg. No one knows how many other citizens in 
China are persecuted for their religious or political beliefs.
    In mid-February 2011, Chinese authorities launched a broad 
crackdown against rights defenders, reform advocates, lawyers, 
petitioners, writers, artists, and Internet bloggers. International 
observers have described the crackdown as one of the harshest 
crackdowns on human rights advocates in years, if not decades. While 
authorities have released many of those people they first detained in 
February, the rapidity and severity of the crackdown indicates Chinese 
authorities remain intolerant of freedom of speech and religion and a 
whole of other fundamental freedoms and rights.
    Perhaps the drafters of Charter 08 have it right. The Charter notes 
that China's policy of ``reform and opening'' has increased living 
standards and economic freedoms in China but states that the ``ruling 
elite . . . fights off any move toward political change.''

                       Submission for the Record 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
